<html>
<title> - NOMINATION OF HON. JESSICA ROSENWORCEL TO BE COMMISSIONER OF THE FEDERAL COMMUNICATIONS COMMISSION</title>
<body><pre>[Senate Hearing 114-228]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-228
 
                 NOMINATION OF HON. JESSICA ROSENWORCEL
                       TO BE COMMISSIONER OF THE
                   FEDERAL COMMUNICATIONS COMMISSION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 28, 2015

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
                             
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                 
   
   
   
   
   
   
   
   
                     U.S. GOVERNMENT PUBLISHING OFFICE
  99-712 PDF                WASHINGTON : 2016       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001  
                             
                             
                             
                             


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                    David Schwietert, Staff Director
                   Nick Rossi, Deputy Staff Director
                    Rebecca Seidel, General Counsel
                 Jason Van Beek, Deputy General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
       
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 28, 2015.................................     1
Statement of Senator Thune.......................................     1
Statement of Senator Schatz......................................     2
Statement of Senator Blumenthal..................................     3
Statement of Senator Wicker......................................    17
Statement of Senator Markey......................................    19
Statement of Senator Blunt.......................................    20
Statement of Senator Ayotte......................................    22
Statement of Senator Fischer.....................................    24
Statement of Senator Daines......................................    25
Statement of Senator McCaskill...................................    28
Statement of Senator Booker......................................    31
Statement of Senator Heller......................................    33
Statement of Senator Klobuchar...................................    36
Statement of Senator Moran.......................................    38
Statement of Senator Peters......................................    41
Statement of Senator Nelson......................................    43
    Prepared statement...........................................    43
    Letter dated October 28, 2015 to Hon. John Thune and Hon. 
      Bill Nelson from Maya Wiley, Counsel to New York City Mayor 
      Bill de Blasio.............................................    44

                               Witnesses

Hon. Jessica Rosenworcel, Commissioner, Federal Communications 
  Commission.....................................................     4
    Prepared statement...........................................     5
    Biographical information.....................................     6

                                Appendix

Hon. Tom Udall, U.S. Senator from New Mexico, prepared statement.    49
Response to written questions submitted to Hon. Jessica 
  Rosenworcel by:
    Hon. John Thune..............................................    49
    Hon. Deb Fischer.............................................    50
    Hon. Jerry Moran.............................................    51
    Hon. Dan Sullivan............................................    52
    Hon. Cory Booker.............................................    53
    Hon. Tom Udall...............................................    55


                             NOMINATION OF



                        HON. JESSICA ROSENWORCEL



                       TO BE COMMISSIONER OF THE



                   FEDERAL COMMUNICATIONS COMMISSION

                              ----------                              


                      WEDNESDAY, OCTOBER 28, 2015,

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:01 a.m., in 
room SR-253, Russell Senate Office Building, Hon. John Thune, 
Chairman of the Committee, presiding.
    Present: Senators Thune [presiding], Wicker, Blunt, Ayotte, 
Fischer, Moran, Heller, Daines, Nelson, Cantwell, McCaskill, 
Klobuchar, Blumenthal, Schatz, Markey, Booker, Udall, Manchin, 
and Peters.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. This nomination hearing will come to order.
    Today, we welcome Commissioner Jessica Rosenworcel to 
testify before the Committee as we consider her nomination to 
serve a second term at the Federal Communications Commission.
    Today's appearance by Commissioner Rosenworcel marks the 
third time she has testified before the Committee this year, 
and I know the Committee appreciates her willingness to come up 
to the Hill to answer questions on a variety of issues before 
the Commission.
    Commissioner Rosenworcel has been serving as a Commissioner 
at the FCC since May 2012, and, before that, she served as a 
senior staffer on this committee for both Chairman Rockefeller 
and Chairman Inouye. So she is a well-known individual to many 
of us on this committee.
    Every single American relies in some part on the nation's 
vast communications system, and this system binds together our 
21st century society. Congress has charged the FCC with 
regulating interstate and international communications by 
radio, television, wire, satellite, and cable. Moreover, the 
mandate of the FCC under the Communications Act is to make 
available to all Americans a rapid, efficient, nationwide, and 
worldwide wire and radio communications service.
    Our communications system is absolutely vital to the 
nation's economy, so it is critically important that those who 
lead the FCC do so by exercising regulatory humility, promoting 
economic growth, trusting technological innovation, and working 
within the framework provided by Congress to make world-class 
communications available to all Americans in both rural and 
urban areas.
    Commissioner Rosenworcel has served during an eventful 
period at the Commission. Perhaps most significantly, the FCC 
voted along party lines to burden the Internet with Title II 
common carrier regulation in February of this year, one of the 
most polarizing and partisan decisions in the agency's history.
    As I said at the time, the tech and telecom industries 
agree on few regulatory matters, but there was one idea that 
unified them for two decades, and that was that the Internet is 
not the telephone network, and one cannot apply the old rules 
of telecom to the new world of the Internet.
    I believe there should be clear rules for the digital road, 
with clear authority for the FCC to enforce them. And that is 
why I sought and am still seeking to work with my colleagues on 
a bipartisan basis to find consensus on a legislative solution 
to preserve the Open Internet. And I will be asking 
Commissioner Rosenworcel about this path forward.
    Another important issue that I want to bring up today is 
about an anomaly in the Universal Service Fund rules that 
Commissioner Rosenworcel and her four colleagues on the 
Commission made a commitment to me in March to fix by the end 
of this year. This anomaly requires a rural consumer to buy 
voice service from a small rural telephone company in order for 
that carrier to be eligible for USF support.
    I led a letter earlier this year, along with Senator 
Klobuchar and 65 additional senators, calling on the FCC to 
make this fix. It is now October 28, and I hope that 
Commissioner Rosenworcel can provide an update on the progress 
of the FCC in satisfying the commitment that she and her 
colleagues made back in March.
    Having said all this, I would like to thank Commissioner 
Rosenworcel for her regular engagement with the Committee and 
her willingness to serve another term at the FCC, and I look 
forward to her testimony today.
    With that, I am going to turn now to our distinguished 
ranking member today for any remarks that he would make.
    Senator Schatz?

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Mr. Chairman.
    I want to thank the Chairman for calling today's 
confirmation hearing.
    We are here today to consider the renomination of an 
outstanding public servant, FCC Commissioner Jessica 
Rosenworcel.
    Welcome back, Commissioner Rosenworcel. It is good to see 
you again. I want to congratulate you on your reappointment to 
the FCC and thank you for your continued commitment to public 
service.
    Since joining the Commission in 2012, you have taken a 
thoughtful approach to issues, helping the Commission to take a 
light regulatory approach that encourages innovation, protects 
consumers, and promotes investment and competition.
    You have also been a leading advocate for kids. Your focus 
on the homework gap has helped us all to think differently 
about connectivity and the need to ensure that children have 
access to the tools that they need to succeed at school in the 
digital age.
    And, finally, when you testified a few months ago in front 
of this committee, you proposed many innovative spectrum policy 
ideas to address the growing demands for wireless broadband. 
Your ideas have helped to shape the upcoming incentive auction 
and will help to frame the FCC's future work to promote 5G 
wireless service and enable the Internet of Things.
    With the pace of technological change and the growth in 
demand for a variety of new communications tools and services, 
the FCC must be agile within the policy framework established 
by the Congress.
    Commissioner Rosenworcel, you have demonstrated that 
agility, and we are grateful for your service on the 
Commission. Thank you for appearing before us here today, and I 
look forward to your testimony.
    Mr. Chairman, I hope this committee can act quickly to 
confirm the Commissioner's nomination for another term.
    The Chairman. I appreciate that. Thank you, Senator Schatz.
    And I want to turn now to our colleague on the Committee, 
Senator Blumenthal, who is here to introduce Commissioner 
Rosenworcel this morning.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Mr. Chairman. Thanks for 
this opportunity to introduce a friend, and I count her as a 
colleague but, most important, a fellow Connecticut native. 
Commissioner Rosenworcel hails from Connecticut, and it is a 
great honor and privilege to welcome her here today.
    And I want to thank her particularly for her very diligent 
and dedicated work on behalf of a wide variety of issues and 
people who are important to this committee, this Congress, and 
the American people. Emergency responders, our schools, 
everyday consumers have been priority.
    And I want to thank her for joining me in Connecticut to 
highlight the importance of avoiding cramming charges, which 
has been part of her very important work on the Commission, 
and, just 7 months later, joining me to urge that telephone 
companies offer consumers new tools to block robocalls.
    Those are just two examples of how she has helped consumers 
and the people of Connecticut and our country, and also serving 
as a tireless advocate for public safety officials, helping to 
update the FCC's 911 rules to keep communities safe and 
protected.
    For children, as my colleague Senator Schatz mentioned, you 
have also been a very steadfast advocate. And you have been, in 
fact, the leading thinker at the FCC on creative ways to update 
spectrum policy for both licensed and unlicensed use.
    So I join in urging your swift confirmation. I certainly 
will be working hard on your behalf. And I am honored to 
introduce you to the Committee today. Thank you.
    Thanks, Mr. Chairman.
    The Chairman. Thank you, Senator Blumenthal.
    And we will turn now to Commissioner Rosenworcel.
    Welcome, again, back to the Committee. We look forward to 
hearing what you have to say today.

 STATEMENT OF HON. JESSICA ROSENWORCEL, COMMISSIONER, FEDERAL 
                   COMMUNICATIONS COMMISSION

    Ms. Rosenworcel. Thank you.
    Good morning, Chairman Thune, Senator Schatz, and members 
of the Committee. Thank you for the opportunity to appear 
before you today for my renomination as a Commissioner at the 
Federal Communications Commission.
    I joined the Commission a little over 3 years ago, and for 
5 years before that I had the honor of serving this committee 
as Senior Communications Counsel. As Senator Thune noted, I 
worked for Senator Rockefeller and Senator Inouye and had the 
privilege of assisting many of you who continue to serve on the 
Committee today.
    As a result, I am well acquainted with this room and the 
deliberations of this body. But I can assure you that sitting 
at this table is humbling.
    I want to start by introducing my family. Sitting behind me 
is my husband of 15 years, Mark Bailen. And sitting beside him 
are our children: Caroline Frances, age 8, and Emmett Joseph, 
age 5. They are our sweetest accomplishment and greatest joy.
    And though they are not here today, I also would like to 
note my parents, Elliott and Willa Rosenworcel, who are at home 
in Hartford, Connecticut. Let me also note my brother, Brian 
Rosenworcel, who is touring the country as the drummer for the 
band Guster. So my parents have the unique ability to claim 
they have children who are a rocker and a regulator.
    It is a tremendous honor to have been renominated by the 
President to continue to serve as Commissioner at the FCC. That 
is because we are in the early days of a communications 
revolution. Network technologies are reaching further and 
faster into all aspects of our civic and commercial life. They 
are transforming the ways we connect, create, employ, educate, 
entertain, and govern ourselves.
    For the Commission, all of this change means humility is 
required. It also means we must recognize what is time-tested 
and enduring. That is why I believe the work of the commission 
must be guided by four essential values that have informed our 
communications laws for decades.
    First, public safety. Our networks must be available when 
the unthinkable occurs and we need them most.
    Second, universal access. No matter who you are or where 
you live in this country, for a fair shot at 21st-century 
prosperity, you need access to first-rate, modern 
communications. That means we need policies that foster 
deployment and adoption in urban areas, rural areas, and 
everything in between.
    Third, competition. Competition increases innovation and 
lowers prices.
    Fourth, consumer protection. Communications services are 
multiplying, but the marketplace is also bewildering to 
navigate. So we should always be on guard for ways to help 
consumers make good choices.
    These values derive from the law, and they have informed my 
work at the Commission to date. In light of them, I am 
especially proud of agency efforts to strengthen 911 service, 
and I am proud of our work to increase access to broadband in 
schools and enhance opportunities for digital-age education.
    I also believe our spectrum policies for licensed and 
unlicensed airwaves have made our wireless markets competitive, 
innovative, and strong. Moreover, our spectrum auctions have 
raised billions for the United States Treasury.
    I am also aware there is more work to be done to bring 
communications policy into the future. That includes supporting 
the world's first spectrum incentive auctions, managing the 
impact of this transition on our Nation's local broadcasters, 
and building on our wireless success with the next generation 
of mobile service, known as 5G. It requires new ideas to spur 
competition, spark entrepreneurship, incentivize the deployment 
of new networks, and help bring the benefits of the 
communications revolution to everyone, everywhere across the 
country.
    If reconfirmed, I look forward to working on these tasks 
with my talented colleagues and the skilled staff of the 
agency. If reconfirmed, I will continue to be guided by these 
fundamental values in the law. And if reconfirmed, I will 
continue to respect the priorities of this committee. I also 
pledge to continue to listen to you, those with business before 
the Commission, and, above all, the American people.
    So, in closing, let me thank the members of the Committee 
today for the opportunity to appear here, and I look forward to 
answering your questions.
    [The prepared statement and biographical information of Ms. 
Rosenworcel follow:]

     Prepared Statement of Hon. Jessica Rosenworcel, Commissioner, 
                   Federal Communications Commission
    Good morning, Chairman Thune, Ranking Member Nelson, and Members of 
the Committee. Thank you for the opportunity to appear before you today 
for my re-nomination as a Commissioner of the Federal Communications 
Commission.
    I joined the Commission more than three years ago. For five years 
before that, I had the honor of serving this Committee as Senior 
Communications Counsel. I worked for Senator Rockefeller and Senator 
Inouye and had the privilege of assisting many of you who continue to 
serve on this Committee today. As a result, I am well-acquainted with 
this room and the deliberations of this body. But I can assure you that 
sitting at this table is humbling.
    I want to begin by introducing my family. Sitting behind me is my 
terrific husband of fifteen years, Mark Bailen. Sitting beside him are 
our children, Caroline Frances, age eight, and Emmett Joseph, age five. 
They are our sweetest accomplishment and greatest joy. Though they are 
not here today, I also would like to note my parents, Elliott and Willa 
Rosenworcel. They are at home in Hartford, Connecticut. Let me also 
note my brother, Brian Rosenworcel, who is touring the country as 
drummer for the band Guster. My parents have the unique ability to 
claim they have children who are a rocker and a regulator.
    It is a tremendous honor to have been re-nominated by the President 
to continue to serve as a Commissioner at the Federal Communications 
Commission.
    We are in the early days of a communications revolution. Network 
technologies are reaching further and faster into all aspects of our 
commercial and civic life. They are transforming the ways we connect, 
create, employ, educate, entertain, and govern ourselves.
    For the Commission, all of this change means humility is required. 
It also means we must recognize what is time-tested and enduring. That 
is why I believe the work of the Commission must be guided by four 
essential values that have informed our communications laws for 
decades.
    First, public safety. Our networks must be available when the 
unthinkable occurs and we need them most.
    Second, universal access. No matter who you are or where you live 
in this country, for a fair shot at 21st century prosperity you need 
access to first-rate, modern communications. That means we need 
policies that foster deployment and adoption in urban areas, rural 
areas, and everything in between.
    Third, competition. Competition increases innovation and lowers 
prices.
    Fourth, consumer protection. Communications services are 
multiplying. We are getting more value from them than ever before. But 
the marketplace is also bewildering to navigate. So we should always be 
on guard for ways to help consumers make good choices.
    These values derive from the law. They have informed my work at the 
Commission. In light of them, I am especially proud of agency efforts 
to strengthen 911 service which have been informed by my visits with 
first responders across the country. I am proud of our work to increase 
access to broadband in our schools and enhance opportunities for 
digital age education. I believe our spectrum policies--for licensed 
and unlicensed airwaves--have made our wireless markets competitive, 
innovative, and strong. Moreover, our spectrum auctions have raised 
billions for the United States Treasury.
    I am also aware there is more work to be done--to bring 
communications policy into the future. That includes supporting the 
world's first spectrum incentive auctions, managing the impact of this 
transition on our Nation's local broadcasters, and building on our 
wireless success with the next generation of mobile service--known as 
5G. It requires new ideas to spur competition, spark entrepreneurship, 
incentivize the deployment of new networks, and help bring the benefits 
of the communications revolution to everyone, everywhere across the 
country.
    If re-confirmed, I look forward to working on these tasks with my 
talented colleagues and the skilled staff of the agency.
    If re-confirmed, I will continue to be guided by the fundamental 
values in the law.
    If re-confirmed, I will continue to respect the priorities of this 
Committee. I also pledge to continue to listen to you, those with 
business before the Commission--and above all, the American people.
    In closing, Chairman Thune, Ranking Member Nelson, and Members of 
the Committee thank you for the opportunity to appear before you today. 
I look forward to answering your questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Jessica 
Rosenworcel.
    2. Position to which nominated: Commissioner, Federal 
Communications Commission.
    3. Date of Nomination: May 22, 2015.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: 445 12th Street SW, Washington, DC 20554.

    5. Date and Place of Birth: 7/12/71; Boston, Massachusetts.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Mark Bailen, Partner at Baker Hostetler; children: 
        Caroline (8) and Emmett (5).

    7. List all college and graduate degrees. Provide year and school 
attended.

        Wesleyan University, BA, 1993
        New York University School of Law, JD, 1997

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Commissioner, Federal Communications Commission

        Senior Communications Counsel, U.S. Senate Committee on 
        Commerce, Science, and Transportation

        Senior Legal Advisor, Office of Commissioner Michael J. Copps, 
        Federal Communications Commission

        Attorney, Drinker Biddle & Reath

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last ten years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last ten years: None.
    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Federal Communications Bar Association

                Chair, Cable Practice Committee (2007-2008)
                Chair, Legislative Practice Committee (2009)

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    Not applicable.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.
        $1000 Donation to Barack Obama Campaign in 2008.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        White Prize for Excellence in Economics, Wesleyan University 
        (1993)

        Special Act Award for Contributions to Common Carrier Bureau, 
        Federal Communications Commission (1999)

        Women Who Represent Award, Alliance for Women in Media (2013)

        Leadership in Advancing Communications Policy Award, 
        Association of Public Safety Communications Officials 
        International (2013)

        Impact Award for Public Service, National Hispanic Media 
        Coalition (2013)

        Federal Policymaker Award, State Education Technology Directors 
        Association (2013)

        Award for Excellence in Public Service, Consortium for School 
        Networking (2014)

        Award for Outstanding Achievement, Family Online Safety 
        Institute (2014)

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
Articles
    As Commissioner I authored or co-authored the following:

        ``Transforming Education Digitally,'' co-authored with Rep. 
        Anna Eshoo, Politico (June 3, 2013);

        ``High-Speed Internet Access a Classroom Necessity,'' co-
        authored with former San Antonio Mayor Julian Castro, San 
        Antonio Express (June 25, 2013);

        ``A Federal Wireless Policy Built on Carrots, Not Sticks,'' The 
        Hill (June 27, 2013);

        ``Giving Our Kids a Chance to Compete in the Global Economy 
        Means High-Speed Broadband Capacity,'' co-authored with 
        Mooresville, North Carolina School Superintendent Dr. Mark 
        Edwards, Huffington Post (July 24, 2013);

        ``Bring Wireless 911 Up to Date,'' The Hill (January 14, 2014);

        ``Growing Unlicensed Spectrum, Growing the Economy,'' Re/code 
        (February 21, 2014);

        ``Let's Upgrade Our Schools for the Digital Age,'' co-authored 
        with Rep. Doris Matsui and Sacramento Mayor Kevin Johnson, 
        Sacramento Bee (April 25, 2014);

        ``Here's How to Expand Wireless Spectrum,'' co-authored with 
        Marty Cooper, San Jose Mercury News (September 26, 2014);

        ``Sandbox Thinking,'' Democracy Journal (Fall 2014);

        ``The Spectrum Pipeline,'' Silicon Valley Leadership Group 
        Gamechangers 2015 (Fall 2014);

        ``The Race to 5G is On,'' Re/code (October 27, 2014);

        ``A New Year, a Bolder and Better E-Rate,'' Huffington Post 
        (December 3, 2014);

        ``How to Close the Homework Gap,'' Miami Herald (December 5, 
        2014);

        ``Let's Give Our Students a Chance to Compete in the Digital 
        Age,'' co-authored with Senator Angus King, Roll Call (December 
        14, 2014);

        ``Limited Internet Access a Challenge for Detroit Kids,'' 
        Detroit Free Press (March 16, 2015);

        ``Falling through the Homework Gap,'' Providence Journal (April 
        25, 2015); and

        ``Filling in the Homework Gap,'' Daily Press (May 30, 2015).

    As Legal Counsel to the Wireline Competition Bureau I co-authored 
the following:

        ``Assessing the Effectiveness of Section 271 Five Years After 
        the Telecommunications Act of 1996,'' co-authored with Daniel 
        Shiman, Chapter 7, Communications Policy and Information 
        Technology: Promises, Problems, Prospects, MIT Press (2002).
Speeches
    As Commissioner, I have spoken at a variety of events, including, 
but not limited to the following:

        August 21, 2012--Speech at Association for Public Safety 
        Communications Officials International 78th Annual Conference, 
        held in Minneapolis, MN;

        November 13, 2012--Speech on The Next Ten Years of Spectrum 
        Policy, Silicon Flatirons Conference sponsored by the 
        University of Colorado, held in Washington, D.C.;

        November 15, 2012--Speech at The Media Institute Awards, held 
        in Washington, D.C.;

        December 13, 2012--Speech at Practising Law Institute, 30th 
        Annual Telecommunications Policy and Regulation Institute, held 
        in Washington, D.C.;

        February 4, 2013--Speech at Rural Telecom Industry Meeting & 
        Expo, held in Orlando, FL;

        April 11, 2013--Speech at Washington Education Technology 
        Policy Summit, held in Washington, D.C.;

        May 14, 2013--Speech at Association for Public Safety 
        Communications Officials International Policy Awards Dinner, 
        held in Washington, D.C.;

        May 22, 2013--Speech at CTIA-The Mobile Marketplace, held in 
        Las Vegas, NV;

        July 1, 2013--Speech at American Telemedicine Association 
        Policy Summit, held in Washington, D.C.;

        September 19, 2013--Speech at It Can Wait Campaign's Drive 4 
        Pledges Day to Prevent Texting While Driving, held in 
        Washington, D.C.;

        October 25, 2013--Speech at Women in Science Awards Ceremony, 
        held in New York, NY;

        October 29, 2013--Speech at Future of Music Summit, held in 
        Washington, D.C.;

        November 4, 2013--Speech at State Education Technology 
        Directors Association Federal Policymaker Award Ceremony, held 
        in Washington, D.C.;

        November 14, 2013--Speech at Women Who Represent Awards, held 
        in Washington, D.C.;

        November 21, 2013--Speech at White House Champions of Change 
        Event, held in Washington, D.C.;

        December 4, 2013--Speech at Association of Public Safety 
        Communications Officials International Emerging Tech 
        Conference, held in Boston, MA;

        December 12, 2013--Speech at Institute of Electrical and 
        Electronics Engineers Globecom Conference, held in Atlanta, GA;

        January 24, 2014--Speech on Families' Educational Media Use in 
        America at The Joan Ganz Cooney Center at Sesame Workshop, held 
        in New York, NY;

        March 17, 2014--Speech at Satellite Industry Association 
        Leadership Dinner, held in Washington, D.C.;

        March 7, 2014--Speech on Wi-Fi in the 5 GHz Fast Lane at the 
        National Press Club, held in Washington, D.C.;

        March 7, 2014--Speech at South by Southwest Education 
        Conference, held in Austin, TX;

        March 20, 2014--Speech at Consortium for School Networking 
        Award for Excellence in Public Service, held in Washington, 
        D.C.;

        May 6, 2014--Speech on Moving Wi-Fi Forward at The Newseum, 
        held in Washington, D.C.;

        May 7, 2014--Speech at Chief Officers of State Library Agencies 
        Meeting, held in Washington, D.C.;

        June 19, 2014--Speech at Workshop on Prevention of Mobile 
        Device Theft, held in Washington, D.C.;

        August 6, 2014--Speech at Association .of Public Safety 
        Communications Officials International Conference, held in New 
        Orleans, LA;

        September 11, 2014--Speech on The Future of Unlicensed Spectrum 
        at the Computer History Museum, held in Mountain View, CA;

        September 16, 2014--Speech on Latino 2.0: Latinos in Tech 
        Innovation & Social Media, held in New York, NY;

        September 22, 2014--Speech at GSMA Mobile 360, held in Atlanta, 
        GA;

        September 30, 2014--Speech on Sandbox Thinking at the Democracy 
        Symposium, held in Washington, D.C.;

        October 2, 2014--Speech at the Marconi Society Symposium, the 
        National Academy of Sciences, held in Washington, D.C.;

        October 14, 2014--Speech at 4G Americas Technology Briefing, 
        held in Washington, D.C.;

        October 29, 2014--Speech at W3C 20th Anniversary Symposium: The 
        Future of the Web, held in Santa Clara, CA;

        November 13, 2014--Speech at Family Online Safety Institute 
        Award for Outstanding Achievement, held in Washington, D.C.;

        January 27, 2015--Speech at State of the Net Conference, held 
        in Washington, D.C.;

        February 4, 2015--Speech at Texas Computer Education 
        Association, held in Austin, TX;

        March 16, 2015--Speech on Supersizing Wi-Fi at South by 
        Southwest Interactive, held in Austin, TX;

        April 29, 2015--Speech at Hispanic Heritage Foundation, held in 
        Washington, D.C.; and

        June 1, 2015--Speech at M-Enabling Summit, held in Arlington, 
        VA.

    As Senior Communications Counsel at the U.S. Senate Committee on 
Commerce, Science, and Transportation, I spoke at panels at a variety 
of events, including, but not limited to the following:

        June 8, 2007--Panel on communications issues at Pike and 
        Fisher's Broadband Policy Summit, held in Arlington, VA;

        September 17, 2007--Panel on congressional issues at Future of 
        Music Policy Summit, held in Washington, D.C.;

        January 28, 2008--Panel on congressional issues at Alaska 
        Telephone Association Winter Convention, held in Lihue, HI;

        March 5, 2008--Panel on emergency communications at policy 
        conference sponsored by the E-911 Institute, held in Arlington, 
        VA;

        March 13, 2008--Panel on communications issues at policy 
        conference sponsored by Association for Maximum Service 
        Television, held in Washington, D.C.;

        January 5, 2009--Panel on Implementing the Broadband Stimulus: 
        Maximizing Benefits and Monitoring Performance sponsored by 
        Columbia Institute for Tele-Information and Georgetown 
        University McDonough Business School, held in Washington, D.C.;

        April 2, 2009--Panel on congressional issues at The Cable Show, 
        held in Washington, D.C.;

        March 31, 2009--Panel on legislative issues at the National 
        Association of Broadcasters State Leadership Conference, held 
        in Washington, D.C.;

        May 14, 2009--Panel on Changing Media: Thinking Across the 
        Issues, Part 2, James L. Knight Foundation, held in Washington, 
        D.C.; and

        March 2, 2010--Panel on The FCC's Authority, sponsored by the 
        Berkman Center for Internet & Society and The Wharton School, 
        held in Washington, D.C..

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        November 30, 2011--Nomination Hearing, U.S. Senate Committee on 
        Commerce, Science, and Transportation;

        May 16, 2012--Federal Communications Commission Oversight 
        Hearing, U.S. Senate Committee on Commerce, Science, and 
        Transportation;

        July 10, 2012--Federal Communications Commission Oversight 
        Hearing, U.S. House of Representatives Committee on Energy & 
        Commerce;

        December 12, 2012--Hearing on Keeping the New Broadband 
        Spectrum Law on Track, U.S. House of Representatives Committee 
        on Energy and Commerce;

        March 12, 2013--Federal Communications Commission Oversight 
        Hearing, U.S. Senate Committee on Commerce, Science, and 
        Transportation;

        August 19, 2013--Field Hearing on the State of Rural 
        Communications, U.S. Senate Committee on Commerce, Science, and 
        Transportation;

        December 12, 2013--Federal Communications Commission Oversight 
        Hearing, U.S. House of Representatives Committee on Energy and 
        Commerce;

        March 18, 2015--Federal Communications Commission Oversight 
        Hearing, U.S. Senate Committee on Commerce, Science, and 
        Transportation; and

        March 19, 2015--Federal Communications Commission Oversight 
        Hearing, U.S. House of Representatives Committee on Energy and 
        Commerce.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have nearly two decades of experience in communications policy. I 
have worked on communications and technology matters from a wide 
variety of positions-both in the private and public sector. This 
includes positions in a law firm, as a Commissioner at the Federal 
Communications Commission, and as Senior Communications Counsel at the 
Senate Committee on Commerce, Science, and Transportation.
    I believe I have used this background to make a positive 
contribution to communications policy in my current position and I look 
forward to continuing to do so by protecting consumers, promoting 
access to new services, and fostering investment and innovation.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    All government officials operate in positions of trust and have a 
duty to ensure that the organization where they work has proper 
management and accounting controls.
    I have experience managing my office at the agency; managing 
policies involving communications at the U.S. Senate Committee on 
Commerce, Science, and Transportation; and managing client matters at a 
private law firm.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    Protecting consumers. As technologies evolve, one thing is 
paramount consumers should be the ultimate beneficiaries of policy 
choices by the Federal Communications Commission.
    Securing access. As technologies evolve, it is imperative that all 
people in this country, no matter who they are or where they live, have 
access to the communications services that are necessary for 21st 
century opportunity, safety, and economic security.
    Growing economy. Digital services are now a vital feature of our 
economy. Providing certainty to companies is an essential part of 
promoting investment, fostering innovation, and creating jobs.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    None. My financial interests are disclosed on my SF-278.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: None.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    None. My husband is a partner at Baker Hostetler. His practice 
involves commercial litigation and does not include advocacy before the 
Federal Communications Commission.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    I presently serve as a Commissioner at the Federal Communications 
Commission. In this position, from time to time, I am asked my thoughts 
on legislative matters pending before the Congress.
    Previously, I served as Senior Communications Counsel at the Senate 
Committee on Commerce, Science, and Transportation. In this capacity, I 
regularly advised Senate offices on communications policy and 
legislation.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Not applicable.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics, 
professional misconduct, or retaliation by, or been the subject of a 
complaint to, any court, administrative agency, the Office of Special 
Counsel, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business or nonprofit of which you are or were 
an officer ever been involved as a party in an administrative agency 
proceeding, criminal proceeding, or civil litigation? If so, please 
explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                     Resume of Jessica Rosenworcel
Legal and Policy Experience

Federal Communications Commission, Washington, DC

Commissioner 2012-Present
Develop and implement communications policy involving radio, 
television, wire, satellite and cable services as a member of the 
United States' primary authority for communications law, regulation and 
technological innovation.

United States Senate
Committee on Commerce, Science, and Transportation, Washington, D.C.

Senior Communications Counsel 2009-2012
Developed and implemented communications policy agenda for the 
Democratic members of the Committee on Commerce, Science, and 
Transportation, under the leadership of Senator Jay Rockefeller (D-West 
Virginia). Organized hearings regarding the National Broadband Plan, 
universal service and rural communications, Children's Television Act, 
future of journalism, wireless service, communications accessibility 
for the disabled, retransmission consent for video programming, 
satellite television, public safety spectrum and oversight of the 
Federal Communications Commission and National Telecommunications and 
Information Administration. Developed and worked to secure passage of 
legislation, including the Broadband Technology Opportunities Program 
in the American Recovery and Reinvestment Act, DTV Delay Act, Satellite 
Television Extension and Localism Act, 21st Century Communications and 
Video Accessibility Act and Public Safety Spectrum and Wireless 
Innovation Act.

Senior Communications Counsel 2007-2008
Developed and implemented communications policy agenda for the 
Democratic members of the Committee on Commerce, Science, and 
Transportation, under the leadership of Senator Daniel K. Inouye (D-
Hawaii). Organized hearings regarding the digital television 
transition, broadband deployment and adoption, universal service, media 
ownership, media violence and indecency, network neutrality, online 
privacy and oversight of the Federal Communications Commission and 
National Telecommunications and Information Administration. Developed 
and worked to secure passage of legislation, including the Broadband 
Data Improvement Act, DTV Transition Assistance Act, Child Safe Viewing 
Act, and New and Emerging Technologies 911 Improvement Act.

Federal Communications Commission, Washington, D.C.

Senior Legal Advisor to Commissioner Michael J. Copps 2006-2007
Advised Senior Democratic Commissioner on television, radio and cable 
policy issues arising under the Communications Act and Cable Television 
and Consumer Protection Act. Developed office positions and strategy 
for advancing telecommunications, Internet, wireless and media policy 
priorities. Managed office staff. Provided legal analysis and voting 
recommendations for Commission decisions. Drafted speeches, editorials 
and press statements. Coordinated policy decisions with Congressional 
offices, state and local officials and industry representatives.

Legal Advisor to Commissioner Michael J. Copps 2003-2006
Advised Senior Democratic Commissioner on competition policy and 
universal service issues arising under the Telecommunications Act. 
Developed policy positions on broadband deployment, Internet access, 
rural communications, public safety networks, E-Rate and VoIP. Provided 
legal analysis and voting recommendations for Commission decisions. 
Drafted Senate testimony, speeches and press statements. Coordinated 
policy decisions with Congressional offices and state regulatory 
authorities.

Legal Counsel to Bureau Chief, Wireline Competition Bureau 2002-2003
Advised Bureau Chief on universal service and broadband policy. 
Coordinated wireline policy with Wireless Telecommunications Bureau, 
Cable Services Bureau and International Bureau. Taught World Bank 
telecommunications workshops for the Economic Ministry of Latvia.

Attorney Advisor, Policy Division, Common Carrier Bureau 1999-2002
Managed teams drafting decisions concerning broadband deployment and 
competitive entry into local and long distance markets. Recipient of 
Special Act Award for policy contributions to the Common Carrier Bureau 
in 2000.

Drinker Biddle & Reath, Washington, D.C.

Communications Associate 1997-1999
Drafted merger documents for privatization of state-owned telephone 
company. Prepared Bureau of Export Administration license application 
for cable modem encryption technology.

Reboul, Macmurray, Hewitt, Maynard & Kristol, New York, NY

Summer Associate 1996
Drafted securities purchase agreements for venture capital and buyout 
firm transactions.

United States Attorney's Office, Brooklyn, NY

Summer Fellow, Criminal Division 1995
Researched and drafted motions on issues of evidence, criminal law and 
criminal procedure.

Skadden, Arps, Slate, Meagher & Flom, New York, NY

Legal Assistant 1993-1994
Managed litigation documents.
Education
New York University School of Law, New York, NY JD, 1997
Honors: Annual Survey of American Law, Editor

Wesleyan University, Middletown, CT BA, Economics and English, 1993
Honors: White Prize for Excellence in Economics
Publications

``Filling in the Homework Gap,'' Daily Press, May 30, 2015.

``Falling through the Homework Gap,'' Providence Journal, April 25, 
2015.

``Limited Internet Access a Challenge for Detroit Kids,'' Detroit Free 
Press, March 16, 2015.

``Let's Give Our Students a Chance to Compete in the Digital Age,'' co-
authored with Senator Angus King, Roll Call, December 14, 2014.

``How to Close the Homework Gap,'' Miami Herald, December 5, 2014.

``A New Year, a Bolder and Better E-Rate,'' Huffington Post, December 
3, 2014. ``The Race to 5G is On,'' Re/code, October 27, 2014.

``The Spectrum Pipeline,'' Silicon Valley Leadership Group Gamechangers 
2015, Fall 2014. ``Sandbox Thinking,'' Democracy Journal, Fall 2014.

``Here's How to Expand Wireless Spectrum,'' co-authored with Marty 
Cooper, San Jose Mercury News, September 26, 2014.

``Let's Upgrade Our Schools for the Digital Age,'' co-authored with 
Rep. Doris Matsui and Sacramento Mayor Kevin Johnson, Sacramento Bee, 
April 25, 2014.

``Growing Unlicensed Spectrum, Growing the Economy,'' Re/code, February 
21, 2014. ``Bring Wireless 911 Up to Date,'' The Hill, January 14, 
2014.

``Giving Our Kids a Change to Compete in the Global Economy Means High-
Speed Broadband Capacity,'' co-authored with Mooresville, North 
Carolina Superintendent Dr. Mark Edwards, Huffington Post, July 24, 
2013.

``A Federal Wireless Policy Built on Carrots, Not Sticks,'' The Hill, 
July 27, 2013.

``High-Speed Internet Access a Classroom Necessity,'' co-authored with 
San Antonio Mayor Julian Castro, San Antonio Express, June 25, 2013.

``Transforming Education Digitally,'' co-authored with Rep. Anna Eshoo, 
Politico, June 3, 2013.

``Assessing the Effectiveness of Section 271 Five Years After the 
Telecommunications Act of 1996,'' co-authored with Daniel R. Shiman, 
Chapter 7, Communications Policy and Information Technology: Promises, 
Problems, Prospects, MIT Press, 2002.

    The Chairman. Thank you, Commissioner.
    We will go with 5 minute rounds, and I will start by asking 
a question, as you might expect, about Universal Service Fund 
rules, which currently require a rural consumer to buy voice 
service from a small rural telephone company in order for that 
carrier to be eligible for USF support.
    If the same rural consumer decides to buy broadband 
services only without a telephone subscription, the carrier is 
no longer eligible to receive USF support for that subscriber's 
line. This outcome stands in direct contradiction to a 
broadband-focused Universal Service Fund.
    On March 18, you and all of your colleagues on the 
Commission made a commitment to the Committee to solve this 
growing threat to rural communications by the end of this year.
    Since then, it is my understanding that Chairman Wheeler 
has chosen to broaden his scope to include updates to legacy 
USF models and support systems. And while I am not opposed to 
this action, I do not want a solution to the standalone problem 
to be subsumed by the weight of a larger effort that may not 
come together.
    And so my question is, do you believe the Commission will 
be able to keep its commitment to the Committee that it will 
fix the standalone broadband problem this year? And will you 
reaffirm your commitment to work toward that goal?
    Ms. Rosenworcel. Yes, Senator. We need to fix the problem 
with standalone broadband for some of our Nation's rural 
carriers. Through a technical and legal quirk today, we will 
only offer them universal service support if customers order 
both voice telephony and broadband service. That does not 
reflect modern communications, and it is absolutely time for us 
to fix it.
    So, if reconfirmed, I will continue to press my colleagues 
to get this done. Like you, I would like this done by the end 
of the year.
    The Chairman. I hope that you will make that goal and make 
that deadline. It is important to a lot of us here on the 
Committee and to a lot of people across the country that we 
represent.
    You serve as Chair of the Joint Board on Universal Service. 
Last year, the Commission asked the Joint Board to provide 
recommendations by April 2015 to modify the way that fees are 
assessed to fund universal service programs.
    We are nearly 7 months now past that deadline, and the 
Joint Board has yet to act. Why has the Joint Board failed to 
make a recommendation to the Commission on universal service 
contribution reform?
    Ms. Rosenworcel. You are right that I serve, Senator, as 
Chair of the Joint Board. In the February Open Internet 
decision, the Commission expressly extended the referral to the 
Joint Board. As you probably know, under Section 254 of the 
law, assessment for universal service is on the basis of 
interstate telecommunications services. And we are charged with 
making sure that that fund has specific, predictable, and 
sufficient support.
    The Joint Board is tasked with trying to figure out how to 
update that support mechanism. But the underlying terminology 
associated with telecommunications service is now the subject 
of litigation in the court of appeals. So the Commission 
decided that it would defer decisionmaking on that until the 
legal environment is more stable.
    But----
    The Chairman. Are--go ahead. Well, I was going to ask, are 
you concerned that the Title II order is not going to withstand 
litigation fully intact?
    Ms. Rosenworcel. Well, I have no crystal ball when it comes 
to the decisions of the D.C. Circuit. I have some confidence in 
our decision as it was made, but I think, given that we are 
resource-constrained, it would not be smart or prudent for the 
agency or our state colleagues to work on this matter until we 
have greater legal certainty.
    The Chairman. If you are comfortable that the order is 
lawful, it seems ironic that you would be concerned that it 
won't be upheld in court. And that is, if the order, then, is 
lawful, in your opinion, it doesn't seem like the litigation 
ought to be used as an excuse to delay what are important 
universal service contribution reforms.
    And so I guess I would ask why, if, in your judgment, the 
Commission acted in a lawful way consistent with the statutes, 
you wouldn't want to proceed with this process?
    Ms. Rosenworcel. Well, I think we could continue to have 
conversations about it, but I would like us to produce a 
decision that we have confidence will be something that the 
agency can take up and vote on at some point in the future. And 
so we want to be certain that the statutory terminology is not 
evolving but is sufficiently stable to support our 
decisionmaking.
    The Chairman. Have you, given your views about the Title II 
order delaying this process, considered asking Congress for 
guidance or offering recommendations to Congress that might 
point to a way of resolving potential questions of commission 
authority regarding universal service contributions?
    Ms. Rosenworcel. Thank you, Senator. That is a very good 
point. Obviously, the universal service program we have is in 
large part a creation of this committee back in the 1996 
Telecommunications Act. And I think any guidance that you would 
like to offer us with respect to both contribution and 
distribution would be absolutely welcome.
    The Chairman. And we would welcome your looking to us for 
that direction, as well, and perhaps giving us your thoughts 
about that.
    I want to ask one final question on call completion. It is 
something that a lot of consumer groups and rural customers 
continue to report problems in receiving long-distance and 
wireless calls on their home telephones.
    And to address a lot of these problems, as you know, the 
FCC adopted new rules last year, in November, that were 
designed to improve the FCC's ability to monitor the delivery 
of long-distance calls to rural areas and to aid in the 
prosecution of violations of the Communications Act.
    We are sort of well into that now, and I am wondering, with 
these call-completion rules that have been in place now for 
some time, what has the FCC discovered in monitoring the 
delivery of long-distance calls to rural areas?
    Ms. Rosenworcel. Thank you, Senator, for the question.
    Rural call completion has unfortunately been a big problem, 
and it is distressing to know that people will reach out to 
friends and family in rural areas or try to make a business 
connection or, worse, reach out for a public-safety call and 
find that the call does not go through.
    So the agency has issued a declaratory ruling to make clear 
that failure to complete these calls is a violation of the law. 
We have also gone after some bad actors. But, as you 
acknowledge, the most important thing we did was we updated our 
data collection so that carriers have a responsibility to 
report to us on these matters. Our hope is, with more data and 
more reports, we will be able to track failures to complete 
calls and go after bad actors more aggressively.
    The first filings with that new data collection were just 
made, and we are reviewing them right now. My hope is we can 
identify some patterns over time, figure out where the problem 
is, and that we will have the record to bring this to a stop.
    The Chairman. Senator Schatz?
    Senator Schatz. Thank you.
    The emerging budget deal asks NTIA to identify 30 megahertz 
of Federal spectrum to be made available for commercial use. By 
some accounts, that is about one-tenth of what the private 
sector will need.
    I think this is a pretty good start, but I am interested in 
your thoughts about what more the Commission can do, what more 
the Congress can do to free up more spectrum and possibly 
generate more revenue for the Treasury.
    Ms. Rosenworcel. Thank you, Senator.
    The wireless economy is growing fast. We all know that 
intuitively, given just how often we reach for our phones and 
our mobile devices. We now have so much more activity in our 
airwaves, and if we want that growth to continue, we are going 
to have to find more spectrum for it to do so.
    I think the 30 megahertz that was in the most recent budget 
deal is a start, but what we really need is a steady spectrum 
pipeline that continues to provide us with airwaves for 
licensed and unlicensed services to make sure the wireless 
economy continues to grow.
    Senator Schatz. Thank you.
    I want to talk about the homework gap again. I know you are 
passionate about it. And what I would like for you to do is 
describe it in as simple terms as you possibly can, on a kind 
of human level, if you wouldn't mind, and then talk about what 
the FCC is doing, can be doing, and what the Committee could be 
doing to address this.
    Because I find it, frankly, shocking that we are, in the 
public and private school systems, assigning homework that 
depends on the Internet and then not providing Internet access 
to enable kids to do their homework.
    Ms. Rosenworcel. Thank you.
    So when I was growing up, when I wanted to do my homework, 
it required paper, a pencil, and my brother leaving me alone. 
Today, more often than not, it requires the Internet. There are 
studies that suggest that 7 in 10 teachers assign homework that 
now requires Internet access.
    But data from the FCC suggests that one in three households 
do not have that access. And the Pew Internet in American Life 
Survey has found that there are 5 million households with 
school-age children in this country that do not have Internet 
access. So just imagine what it is like to be a kid in one of 
those households. Getting your basic schoolwork done is hard; 
applying for a scholarship or job is challenging.
    This strikes me as the cruelest part of the new digital 
divide. But it is also within our power to fix it and bridge 
it. There are programs that we have that support low-income 
telephony right now in households that we could update. We 
could clear more of our skies for WiFi services, which is an 
easy way to get more people online. And then we should support 
public-and private-sector partnerships that help get broadband 
access and computing power into students' hands at home.
    Senator Schatz. So what is happening between the FCC and 
the U.S. DOE to kind of make sure that these efforts are 
coordinated?
    Ms. Rosenworcel. Well, right now, there is a ConnectED and 
ConnectHome initiative. ConnectED is designed to help support 
connectivity in schools. ConnectHome is an effort that is 
designed to support connectivity at home, particularly in low-
income housing developments.
    So that is a start. It doesn't cover everything, and I 
don't think there is one, single silver bullet that is going to 
solve this problem. But it is a new element of the digital 
divide we should all be on guard for ways to solve and fix.
    Senator Schatz. We want you to be relentless on this, and 
we will look forward to working with you on this. Thank you.
    The Chairman. Thank you, Senator Schatz.
    Senator Wicker?

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Commissioner, I bet your brother got out of 
the way when you told him to. And I hope he is doing well also.
    Let's talk about the Universal Service Fund, its wireless 
component, the Mobility Fund, as it relates to rural America; 
specifically precision agriculture.
    We had a representative from John Deere a few days ago who 
testified before the Committee about precision agriculture 
technology, and he said, ``Deere supports retention and even 
expansion of the FCC's Mobility Fund.''
    In your judgment, is existing rural wireless coverage at 
risk of being stalled or even reduced without continued USF 
support?
    Ms. Rosenworcel. Yes.
    Senator Wicker. And what needs to be done in response to 
that risk of this important segment of our economy?
    Ms. Rosenworcel. Well, to date, the FCC has proceeded with 
the first element of its Mobility Fund. We have made available 
roughly $300 million in that fund to support deployment in 
rural areas.
    But we need to move on to the second phase of the fund. And 
what I would like that second phase to do is focus with laser-
like accuracy on areas of the country, rural areas, that do not 
have service today. Because we know that areas that have better 
broadband and wireless service are better equipped to compete. 
That is true for urban America and rural America alike.
    Senator Wicker. And, actually, I think you used that very 
term, ``laser-like focus,'' earlier this year when you appeared 
before this panel to talk about spectrum and wireless 
broadband.
    How is that issue proceeding now among the five members of 
the Commission? And what concrete steps should the commission 
take in Mobility Fund II to preserve existing levels of 
wireless coverage? What concrete steps should the Commission 
take in areas such as remote patient monitoring, which is a 
huge concern of mine, precision agriculture, and public safety? 
And what should Congress do? What can Congress do?
    Ms. Rosenworcel. Well, the examples you just gave are 
examples of just how useful wireless is in every aspect of our 
lives.
    Remote patient monitoring, it can help with health care. 
Particularly for the elderly or individuals who live in rural 
areas where traveling to a hospital or health clinic takes a 
long time, monitoring at home is incredibly efficient and cost-
effective.
    Precision agriculture----
    Senator Wicker. Do you know that we can even monitor in 
ambulances now?
    Ms. Rosenworcel. Yes.
    Senator Wicker. Go ahead.
    Ms. Rosenworcel. Agriculture, too. Underappreciated just 
how important wireless technology is to help support our 
nation's farms. And then, of course, public safety.
    So when you contemplate the breadth of what wireless 
services can do, we need to make sure that our Mobility Fund, 
the second phase of it, moves ahead and focuses on the benefits 
that we could provide in rural America.
    I think that we should make sure that we put the remainder 
of our universal service work on a timeline so that we can 
commit to you that we will have the second phase of the 
Mobility Fund in place in short order.
    Mr. Wicker. And how is that debate proceeding among the 
five members of the Commission, in your judgment?
    Ms. Rosenworcel. In my candid judgment, we have some 
differences of opinion on that. I would like, however, us to 
follow through. We committed in 2011 to having a second phase 
of the Mobility Fund, and I would like to see us put it in 
place as soon as we can.
    Mr. Wicker. I wonder when the Commission might be moving 
toward a consensus on that question.
    Ms. Rosenworcel. Well, I can tell you, Senator, if 
reconfirmed, I will press my colleagues to work to a consensus 
on that. I think it is important to do so.
    Mr. Wicker. Do you have any recommendations as to what 
Congress can do to encourage more rural broadband build-out?
    Ms. Rosenworcel. I do. I think there is actually 
legislation before this committee from Senator Klobuchar and 
Senator Fischer, the Rural Wireless Accessibility Act.
    And, in fact, it recommends that in areas of the country 
where large carriers might own licenses to deploy but are not 
deploying, that they make sure that they lease that out to 
smaller rural carriers so they can deploy in rural communities. 
And in order to make them more inclined to do that, it gives a 
license extension. And I think that kind of incentive-based 
system is a way to push secondary markets to work well and 
better serve rural America.
    Mr. Wicker. So you are endorsing the Fischer-Klobuchar 
bill. Is that correct?
    Ms. Rosenworcel. I think they are going to want me to say 
yes. I believe the fundamental idea in there is spot-on and 
could be particularly helpful for rural communities.
    Mr. Wicker. Thank you very much.
    The Chairman. Thank you, Senator Wicker.
    Senator Markey?

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much.
    Big decision earlier this year at the FCC. And I appreciate 
the fact that your decision on net neutrality, Title II, is in 
the courts, but I also believe that the construct that we have 
today under your new regulation is the correct one.
    It is a good balance between the broadband companies on the 
one hand, and, on the other hand, you have all these startups, 
the software and Internet-specific companies all across the 
country, all these smart young people who are listening to 
Guster right now, who really do, you know, make the difference, 
the change in our society. And right now 65 percent of all 
venture capital is going to software and Internet-specific new 
companies. So it is a good balance, and that is really the 
change in our society.
    So I wanted to compliment you on that because I do think 
that there is a high probability of that decision being upheld. 
I think it is on very strong legal grounds.
    But I would like to turn, if I could, to your decision of 
just a year ago, which was to increase the contribution that is 
inside of the E-Rate, the education rate, to make sure that we 
are wiring schools, that we wire the libraries, that we give 
the young people in our country the access to the technology 
which they need in order to compete.
    And so, you know, we have WiFi in Starbucks, and people go 
in there now, and that is kind of a constitutional right people 
have, to go to a Starbucks and to use their WiFi, but not so 
much in schools or classrooms. A kid isn't automatically, you 
know, guaranteed that that is the case. And you talked about 
the kids that don't have the Internet even at home.
    And I guess that is kind of what I would like you to 
elaborate a little bit more on.
    Because when I was a kid, you know, my father was a 
milkman, but if I took my books home, I could compete with the 
school superintendent's son. We all knew that, people on this 
panel. But in the modern era, the school superintendent's son 
has access to all these incredible technologies. And the poorer 
you are, the less likely you are going to have it in a way that 
is going to allow you to compete in a world where businesses 
and schools are going to be looking toward your familiarity, 
your ability to be able to use that skill set.
    So that is kind of a big divide that continues to be out 
there. And you really led the charge to increase it up to $3.4 
billion a year, the funding that is going into that, and WiFi 
is a big part of that.
    Could you elaborate a little bit more about how you see 
that unfolding and what the FCC is doing to monitor that to 
make sure that it gets implemented properly?
    Ms. Rosenworcel. Right. Thank you, Senator.
    E-Rate is the Nation's largest education technology 
program, as you know. When I got to the FCC, what I found was 
it was frozen in the era of dialup. And if you think about 
that, that just makes no sense. We know that half the jobs 
today require some level of digital skill, and by the end of 
the decade it is going to be 77 percent. We need to make sure 
that every student in every school in every community has the 
ability to participate in the new economy.
    Senator Markey. So I thank you.
    And you are right. This is a program that was put in place 
just as the 1996 act was passed, and it was a dialup era. Not 
one home had broadband when we passed that law in 1996. And 
Senator Rockefeller in the Senate and I in the House, we 
created this E-Rate program back then, and it has now spent $36 
billion, $38 billion making sure the kids have access to it. 
But the modernization just has to continue.
    And if you could just elaborate a little bit more on just 
how you see WiFi specifically as a technology, you know, 
unfolding in its role to give the kids the tools that they 
need.
    Ms. Rosenworcel. Right. Well, it is so important. It used 
to be that students would march down the hall once a week to a 
computer lab, where big, bulky equipment was that came and 
showed up in shrink-wrapped packages. That is no longer the way 
it is today. We need to create schools that are capable of one-
to-one device learning, so that requires WiFi.
    And one of the best things about what we did was we updated 
what is known as Category Two in the E-Rate program to make 
sure that WiFi support is available for schools. And many more 
schools are going to be able to get support from this program 
to not only get broadband to the front door but to move it 
around the school into every classroom as a result.
    Senator Markey. Thank you. Well, in December, we celebrate 
the first anniversary of that change in the law, and you were a 
real driving force in doing that. So I want to congratulate you 
on what you have done for the children of our country. It is a 
great accomplishment.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Markey.
    Senator Blunt?

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. Thank you, Chairman.
    And, Commissioner, it is great to have you here, and thanks 
for your work.
    On the spectrum auction that comes up next year, it now 
looks like maybe as many as a thousand local broadcast stations 
will have to move where they are on the spectrum to somewhere 
new, and that that is going to cost substantially more than 
originally estimated. I think the cost comes out of the 
proceeds of the auction. You can correct me if I am wrong on 
that.
    But what kind of preparations are you all making at the FCC 
for a thousand stations to have to find a new place to be and 
for that cost to be higher than you initially thought it was 
going to be?
    Ms. Rosenworcel. Thank you, Senator.
    You are right; we have a very big auction coming up next 
year. We have the world's first spectrum incentive auctions. 
And that will put more mobile broadband into commercial 
carriers' hands. It will make more unlicensed opportunities 
available. And it will give broadcasters an opportunity to 
participate by getting out of the business of broadcasting or 
continue to stay in.
    Some segment of those broadcasters will need to relocate 
their stations. I can't tell you right now if the number you 
have is correct, because until we are in the middle of the 
auction I don't think we are actually going to know how many 
stations need to relocate.
    Under the Middle Class Tax Relief and Job Creation Act, 
Congress set aside $1.75 billion from the auction proceeds to 
assist those stations with relocation. I think it is important 
that we make sure that those funds are ample. Every station 
that is being relocated should have the ability to access those 
funds.
    At the present time, I think the money that we have before 
us, that Congress tasked us with setting aside, is adequate, 
but I think we should stay on guard. Because if we find out 
that it is not, we will have to come back to Congress and ask 
for your assistance.
    Senator Blunt. On the thousand number, do you all have an 
estimate that you are looking at? Surely there is some estimate 
over there as to how many stations you think will take the 
relocation as opposed to the go-out-of-business option.
    Ms. Rosenworcel. I don't think we have a specific estimate. 
I think that is because we won't have one until closer to the 
date of the auction.
    We are certainly socializing these opportunities with 
broadcasters all across the country. We are finding some are 
interested and some are not. But we won't ultimately know until 
we start the forward auction and when we have signs from each 
of the broadcasters before that auction begins about whether or 
not they will participate.
    Senator Blunt. And at some point, if you believe you don't 
have enough money to make those relocations work, what will you 
do?
    Ms. Rosenworcel. I believe, if we determine that we do not 
have enough funds, the first thing we should do is come to this 
committee and come to the Congress. Because I think 
broadcasters should not be unduly charged for having to manage 
this spectrum relocation.
    Senator Blunt. All right.
    On one other topic, you know, I think nobody has ever been 
on the Commission who understands this committee better than 
you do, who went to the Commission with better relationship 
than you do. And then and again today, you promised to work 
with the Committee, to get back to the Committee promptly.
    I know there are at least two occasions where I was part of 
a group that contacted the Commission, you as a member of the 
Commission, not just you individually. First, five members of 
the Committee, including Senator Wicker, here by my side, who 
was the ranking Republican of the Communications Subcommittee, 
expressed strong concerns about the FCC's upcoming vote on 
retroactively changing their mind on joint sales agreements. 
Second, Senator Thune and I and others contacted the Commission 
on our concern that we shouldn't try to apply the monopoly-era 
Title II regulations to the broadband marketplace.
    Neither of those letters ever had an adequate response, not 
even a response, ``We got your letter, and we are not going to 
respond.''
    So how does that work? Do these letters go to the 
Commission and, collectively, you and the Chairman just decide 
you are not going to answer? How does that work, and how do you 
think it should work?
    Ms. Rosenworcel. Well, Senator, I apologize if you did not 
get an official response to those letters. Most of those 
letters do, in fact, go to the Chairman's office, but I would 
be perfectly happy to offer responses myself.
    I think it is important we continue to work with this 
committee. And you are the folks who created the law that 
created the agency. So I would want to make sure that our 
relationships are actually improved and we are more responsive.
    Senator Blunt. Well, I think maybe in the future I will see 
that you for sure are copied in----
    Ms. Rosenworcel. OK.
    Senator Blunt.--because if the letters go to the Chairman's 
office, the Chairman is not responding adequately. And I will 
look forward to talking to Chairman Wheeler about that the next 
time I see him.
    Though I have personally talked to him about both of these 
letters, and he wasn't particularly responsive even in person 
on the views that the Committee or the Congress had on these 
issues.
    Thank you.
    The Chairman. Thank you, Senator Blunt.
    Senator Ayotte?

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. Thank you, Chairman.
    I want to thank you for being here, Commissioner.
    And I wanted to ask about the E-Rate program. For a state 
like New Hampshire, we have many rural areas, and we have 
really been left behind on this program.
    If you look at the history in New Hampshire, we have been 
50th out of 50 for many years, and in 2014 I think we moved up 
a little bit, but we are still toward the bottom of the list, 
unfortunately.
    And, of course, we are a net donor state, so my 
constituents are paying into this but not getting back even the 
full value of their dollar, and quite a diminished value if you 
look at the overall fund.
    We have had this discussion about your vote and others' to 
increase the cap to $1.5 billion on E-Rate. But I would like to 
know, what are we going to do to address adequate distribution 
of E-Rate? Because in your role at the FCC, we can't leave 
rural students behind in all of this. I would like to get your 
impressions on that.
    In turn with it, one of the issues that I see with it is 
prioritizing instructional facilities, like schools and 
libraries. Right now, administrative offices are also eligible, 
but as we look at the priorities, it seems to me that direct 
student services, while I don't diminish the role of 
administrators, let's prioritize to get it directly to those 
student interactions.
    So can you give me some impressions on what are we going to 
do on distribution, and what are we going to do more 
efficiently with this program?
    And I am going to ask my second question because I think it 
is related to it. One of the big complaints I get from my 
constituents about why more of them aren't applying for E-Rate 
dollars is that there are six forms. We don't have an army of 
people in New Hampshire to be able to put this application in. 
Maybe other larger school districts can do that, but we need to 
simplify this application. I think that is significant because 
this is what I hear when I reach out to schools and libraries, 
asking ``How can we get more of these dollars to you, get more 
access to our students?''
    I want to hear more about distribution, how do we direct it 
better, and how can we get this down to a very simplified 
application so that we don't disadvantage smaller states and 
rural areas based on bureaucracy.
    Ms. Rosenworcel. Thank you, Senator. Those are good points. 
You might be surprised I agree with just about all you said. 
And, also, as a New Englander, I realize there are parts of New 
Hampshire that are very rural and have not traditionally been 
the beneficiary of most of our universal service programs.
    That is why I actually think the reform of the E-Rate 
program is so substantial. Because by reforming our Category 
Two services, we are making WiFi more available in more 
schools, and New Hampshire is among them. For the first time, 
New Hampshire as a state has been eligible for that support in 
several years.
    So we are going to find that more funds are actually going 
to flow to rural communities for WiFi support, which I think is 
terrific and helpful.
    I take your point that schools and libraries and student-
centered activities should be the focus. I would be happy to 
follow up with you on your concern about administrative 
offices.
    And then finally----
    Senator Ayotte. Not that I don't think they should be 
eligible, but I think that if we prioritize, that should be the 
lower priority as we look forward----
    Ms. Rosenworcel. Sure.
    Senator Ayotte.--to serving students.
    Ms. Rosenworcel. No, that is a fair point. I don't know 
enough about that today to get back to you on that.
    But your point about streamlining the application, I have 
gone around the country and spoken to lots of schools and 
student groups and state technology directors, and they all say 
the same thing.
    We streamlined the application in our reforms last year, 
but I will be the first to tell you it is not enough. It is a 
continuous process, and we need to have our ear to the ground 
and listen to the schools that apply for these services and 
find out what kind of bureaucratic impediments just make it 
hard for them to do so. So I think we have made improvements, 
but I think we can do more.
    Senator Ayotte. Good. I am glad to hear you say you will 
make this a priority, because it is so critical for my state.
    I wanted to follow up briefly on the issue of the Open 
Internet order. One of the things that, in my view, was lacking 
in it was this idea of an independent cost-benefit analysis, 
even though the minority members on the decision had called for 
an independent cost analysis.
    Given the Commission's directive to act in the public 
interest, convenience, and necessity, do you think it is 
important for the Committee to include an independent cost-
benefit analysis of its rules to ensure that it does meet the 
public's interest, convenience, and necessity, which is your 
broader purpose?
    Ms. Rosenworcel. That is right. The President had an 
Executive Order back in 2011 directing, to the extent feasible, 
that agencies engage in cost-benefit analysis when they make 
major decisions, and I fully support that.
    In 2010, when we first came up with these policies, we had 
a fairly extensive cost-benefit analysis. It is, candidly, less 
extensive in the most recent decision, in part because that was 
a response to an opinion from the court of appeals. But I take 
your point that that should be a part of our analysis going 
forward, and I could commit to doing that for you.
    Senator Ayotte. Thank you.
    The Chairman. Thank you, Senator Ayotte.
    Senator Fischer?

                STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Thank you, Mr. Chairman.
    Welcome, Commissioner.
    You have talked about opening up more unlicensed spectrum 
for WiFi, even highlighting your concerns with the way the CBO 
has scored the licensed spectrum over the unlicensed. So what 
are the potential implications of releasing more spectrum for 
that unlicensed use?
    Ms. Rosenworcel. Thank you.
    Unlicensed spectrum is incredibly important for our 
economy. Think of it like WiFi. It democratizes Internet 
access. It is the source of $140 billion of economic activity 
every year. And even our licensed carriers rely on it when they 
offload service onto it. So we need more of that, just like we 
need more licensed spectrum that is committed to commercial 
use.
    The challenge is, as you know, the Congressional Budget 
Office takes all of your spectrum policy and grinds it through 
an analysis that sometimes produces results that are at odds 
with some of the infrastructure goals of this committee and the 
Congress.
    And one of the challenges is that the Congressional Budget 
Office prefers licensed spectrum to unlicensed spectrum, and 
that is because licensed spectrum raises revenue when we 
auction it off to commercial carriers. But what it misses is 
that unlicensed spectrum is the source of so much economic 
activity, as I mentioned, $140 billion every year.
    So it is my hope that, going forward, spectrum legislation 
would follow the pattern that Congress created in the Middle 
Class Tax Relief and Job Creation Act when it set aside the 
guard bands in the 600-megahertz band for unlicensed service--
in other words, every time that there is an instruction to 
auction licensed airwaves, there is a cut for unlicensed or a 
WiFi dividend. And I think if we get the right mix of licensed 
and unlicensed services, our wireless economy is really going 
to grow.
    Senator Fischer. So, legislatively, you would suggest that 
we be clearer in the proposals that we put forward?
    Ms. Rosenworcel. Yes.
    Senator Fischer. Thank you.
    Also, in March, the Senate passed a bipartisan resolution 
on the Internet of Things that Senator Ayotte and Booker, 
Senator Schatz and I put out. And it stressed the importance of 
developing a national strategy so that we can encourage the 
Internet of Things.
    As the resolution states, innovation is the key to the 
United States remaining a world leader in technology. However, 
to move forward with these creative ideas, I think we have to 
have some clear rules and some clear expectations. So I am 
concerned that the proposed net neutrality rule moves in less 
than a market-driven direction.
    So what can the FCC do to foster innovation so that the 
United States continues to be a world leader in technology and 
also in telecommunications?
    Ms. Rosenworcel. Thank you.
    The Internet of Things is exciting. By the end of the 
decade, we could have as many as 50 billion devices with 
wireless sensors, making us more efficient and effective in 
everything we do. We will have people talking to people, people 
talking to machines, and machines talking to machines. The 
possibilities are really big.
    I think there are four fundamental policy areas in the 
Internet of Things, not all of which fall under the FCC's 
jurisdiction. But I think we have to be concerned about 
security. We have to be concerned about privacy. We have to be 
concerned about the adequacy of IP addresses for all of those 
devices. And we need to be concerned about spectrum. And, 
again, back to your prior question, making more unlicensed 
spectrum could actually help the Internet of Things really 
flourish.
    Senator Fischer. Do you think that would be the main thing, 
then, that the FCC can do, is to maybe step back, to offer more 
encouragement in many of those areas?
    Ms. Rosenworcel. Yes. I don't think we should be overly 
aggressive at this point. I believe that we should allow 
experimentation with the Internet of Things. And I think that 
is how we will see its possibilities grow.
    Senator Fischer. Good. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Fischer.
    Senator Daines?

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Mr. Chairman.
    It is good to see you here today, Commissioner, and good to 
see your family here, as well. Caroline Frances is one of my 
favorite girls' names. We have a little girl named Caroline, as 
well. She is now a big girl.
    And, Emmett Joseph, that is a sharp-looking tie you are 
wearing there today, as well.
    Thanks for coming to Montana last month to participate in 
the Kalispell telehealth workshop, where I am sure you saw 
firsthand the opportunities that technology truly can bring to 
rural America.
    In your statement to the Committee, you mentioned that one 
of your top priorities is securing access to communications 
services for all people, no matter where they live. And I 
couldn't agree more. Access to technology is allowing us to 
remove geography as a constraint and allows Montanans and those 
who live in rural areas to start and grow world-class 
companies. But we still have a lot of work to do, a lot of 
issues to overcome, to connect our unserved communities. And, 
certainly, the FCC plays a very big role in that.
    The Communications Act tasks the FCC with providing 
services to rural consumers that are reasonably comparable to 
services in urban areas. Now, some areas of the country are 
about to get 5G service, and many areas in Montana don't even 
know what G is right now. We would love to see G-anything. Can 
we really say that this is comparable service?
    Ms. Rosenworcel. Thank you, Senator, for the question. And 
thank you for acknowledging my family.
    I think we have work to do. You can travel in rural America 
and rural Montana and know that connectivity is not yet 
everywhere. And we are continually adjusting, tweaking, and 
evolving our universal service policies to make sure that we 
reach those areas with more precision.
    That is not something we can do one time. We have to 
constantly be working at it, constantly identifying those areas 
that do not have service, and making sure we direct our funds 
toward those areas.
    Senator Daines. What is the FCC doing to incentivize build-
out and bring rural states up to comparable levels? I think it 
often comes down to incentives.
    Ms. Rosenworcel. Senator, I agree with you. I think it is 
important that we use our license terms as an incentive, that 
license terms should be longer if you meet intermediate build-
out requirements. License terms should consider build-out 
requirements that are specific to rural areas.
    We should also think about how, during our auctions, we 
auction off licenses in small enough sizes that small carriers 
can compete.
    And, finally, in redoing our designated entities rules 
recently, we created new bidding credits for providers that 
serve rural areas.
    And I think, with a mix of policies like that with 
incentives built into them, we have a chance of actually 
providing better service.
    Senator Daines. You have brought up the issue of spectrum. 
And, as you know, we have plenty of spectrum in Montana. The 
problem is deployment. We have companies in Montana who want to 
build out infrastructure, but the spectrum they need is owned 
by companies that aren't using it.
    So I would like to get your thoughts on what are some ways 
to encourage companies that have spectrum in rural areas, in 
rural states, to build out or at least lease the spectrum to 
rural providers.
    Ms. Rosenworcel. Thank you. I guess this is where I am 
going to give a plug to that bill that I mentioned earlier, 
which I think thoughtfully suggests that companies, large 
companies, that have spectrum licenses in rural areas, to the 
extent they are not deploying there, should be given an 
incentive to lease it out to small companies that are willing 
to do so. And that incentive could be an extension of their 
underlying license.
    Senator Daines. Can you explain how the FCC determines the 
build-out requirements for spectrum holders? Because in a rural 
state like Montana, a company could meet its build-out 
requirements by only serving two or three small communities but 
still leave 70 percent of the state's population unserved. So 
what could the FCC do to ensure build-out in rural areas so 
that everyone is served?
    Ms. Rosenworcel. You are right. Traditionally, I believe 
most of our build-out requirements have been on a population 
basis, which means in a vast state like Montana you could 
service a handful of towns and succeed in reaching that 
milestone.
    I think the question is, can we come up with a system that 
is more geographic-based or roadmile-based so that we can make 
sure service goes more places? Because people, of course, 
travel through those places to do their business, to move 
through the state, and to get to work.
    Senator Daines. We just had a situation--in fact, a bow-
hunter was attacked by a grizzly bear. I met him last week back 
home. It is an amazing story of survival. But it was his cell 
phone that probably saved his life, as he was in a pretty 
remote area and was able to get a signal and get help. And it 
probably saved the young man's life.
    Last question, universal service. Many companies in Montana 
rely on universal service funds, but there are issues with the 
fund, including overbuilding as well as duplication.
    You mentioned the importance of universal access for all 
Americans. What is the FCC doing to make sure that USF funds 
are used to bring connectivity to unserved communities--kind of 
back to the same drumbeat here--rather than communities who 
already have access?
    Ms. Rosenworcel. You are right, Senator. We have $4.5 
billion that we can make available annually for high-cost areas 
of this country, rural communities. We would be wasteful if we 
chose to continue to allow those funds to support areas where 
the private sector has already supplied broadband and wireless 
services.
    We are making efforts with our new Connect America Fund to 
make sure that if there is a private-sector supplier we no 
longer provide funding to those areas. We are going to have to 
continue to work on that because we cannot afford duplication 
because our funds are not infinite.
    Senator Daines. I couldn't agree more. Yes. Thanks, 
Commissioner.
    The Chairman. Thank you, Senator Daines.
    And a reminder to check your bars of service before going 
into bear country, I would think, would be a good----
    Senator Daines. And bring your bear spray.
    The Chairman. And bring your bear spray, OK, and perhaps 
some other firepower along with you.
    Senator McCaskill?

              STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. Thank you.
    Commissioner, back in 2013-2014, there were announcements 
made about fines being levied against those carriers who had 
abused the Lifeline program. As you know, this has been an area 
of great interest for me for many years, trying to get at the 
waste and abuse and fraud that was inherently embedded in that 
program because of a lack of planning when it began, I might 
note, during the Bush administration.
    So I thought it was great when more than $94 million in 
fines was announced. I thought, OK, we are making progress. I 
am beyond confused as to why not one dime of that has been 
collected.
    And I look at the list of the people that owe money on 
these fines. One of them is TracFone. Well, they are getting a 
big check from us every month. I believe all of these people 
that owe millions of dollars are still part of the program.
    And I think it is really important, and I mean, like, now, 
that I get some kind of answer from the Commission why not one 
dime of these--I mean, we might as well have a big flashing 
sign that says, ``Doesn't matter, do whatever you want in the 
Lifeline program because we are not even going to bother to 
collect the money and we are going to keep paying you.''
    I mean, do you have any explanation as to why none of these 
fines have been collected?
    Ms. Rosenworcel. Senator, I agree with you, that sounds 
problematic, $100 million in fines during the last 2 years for 
bad actors who have played fast and loose with this program. We 
absolutely have to make sure that they are paying up. And if 
they are defrauding the program, they should have absolutely no 
reason to continue to participate.
    So I agree with you. But on the specifics of their payment 
schedule, I would need to get back to you on that.
    Senator McCaskill. Well, there is no payment schedule 
because there has been no payment. And there haven't been any--
I am not aware of any major fines that have been levied since 
February 2014.
    I would like to know specifically if you all have the tools 
to cutoff their participation in the program until they pay the 
fines. I see no reason why they should be allowed to 
participate until they have paid.
    Ms. Rosenworcel. We do have a debarment program, and we 
need to make sure that we apply that. The challenge with 
applying it, of course, is we don't want to cutoff the 
underlying consumer, so we have to figure out a----
    Senator McCaskill. Believe me, there are plenty of people 
out there to pick them up. They are still out there soliciting 
for folks on every street corner, I can assure you. It is not 
hard to get a Lifeline phone. This is not a difficult 
challenge. And believe me, everybody who has them knows how to 
get them.
    So I am not as worried about that, about them getting cut 
off, especially if you give them notice or you direct them to a 
different carrier, which should not be that hard if we are 
keeping the records we should be keeping around this program.
    Ms. Rosenworcel. That is exactly what I am talking about, 
that we just need to give them notice, we need to find a way to 
get them to a new carrier so they are not cut off from basic 
service.
    Senator McCaskill. Well, I am going to be paying really 
close attention to see if some money comes in on that.
    I was confused when I looked at the budget deal. I don't 
know how this provision got in there. And if anybody knows, I 
would love to find out. I just think it is a really bad idea 
that we have put something in this budget deal that is going to 
allow the Federal Government to participate in robocalls to 
collect debt.
    And the interesting thing is, when I looked at the backup 
for this, for the changes in direct spending and outlays, CBO 
doesn't even say we are going to get any money from it.
    So I am against that provision. I will probably vote for 
the deal because I can't see jettisoning this important 
compromise because of that. But you are going to have the power 
to issue regulations within 9 months dictating the frequency 
and duration of such calls.
    And, you know, I have a hard time imagining, if someone has 
debt collectors coming after them, I have a hard time imagining 
that robocalls are very effective. You know, I don't think 
robocalls are effective for anything, including politics, but I 
am pretty sure if you owe money to a bunch of people, including 
the Federal Government, you are not paying much attention to 
robocalls.
    So I would like to see really aggressive regulations around 
this, if this actually does become the law, about how frequent 
these calls could be and the duration of these calls. I just 
think this is a stupid idea. We should be getting rid of 
robocalls, not empowering the Federal Government to make them.
    So I would appreciate your feedback and the Commission's 
feedback on the regulations that you would be willing to put in 
place if we go down this, I think, nutty path of letting the 
Federal Government----
    Ms. Rosenworcel. So, like you, I detest robocalls, and I 
know I am not alone. It is----
    Senator McCaskill. America detests robocalls.
    Ms. Rosenworcel. It is the largest single category of 
complaints that the FCC gets year-in and year-out. Our friends 
at the FTC get even more.
    Senator McCaskill. Right.
    Ms. Rosenworcel. So I am proud of the work the agency has 
done to try to improve the possibilities of do-not-disturb 
technology and give consumers the right to revoke consent. And 
when and if we have to proceed with the legislation you just 
described, we would be perfectly happy to work with your office 
to make sure that American consumers get a little more of that 
privacy they deserve.
    Senator McCaskill. Yes, I would like to see you do a rule 
that they can make one robocall a year for 10 seconds.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator McCaskill.
    And my understanding is, I think that provision that is in 
the budget agreement is something that the administration 
proposed in their budget in previous years, and I think it is 
something that they put on the table in this current discussion 
as well.
    Senator McCaskill. Well, they are wrong.
    The Chairman. I figured you would say that. Thank you, 
Senator McCaskill.
    Next up is Senator Blumenthal.
    Senator Blumenthal. I strongly agree, Mr. Chairman, with 
Senator McCaskill. And Commissioner Rosenworcel is well aware 
of my views because she and I have discussed hers and mine at 
length.
    And I know that you agree that consumer complaints about 
this intrusive, invasive practice are very well justified. In 
fact, the Consumers Union conservatively estimates that $350 
million are lost annually to phone scams, generally, a lot of 
them, the result of robocalls.
    And the good news is advanced technology is available and 
affordable to stop these very intrusive and invasive machine-
driven calls. And telephone companies ought to make blocking 
options available right away. Even in advance of a rule, the 
telephone companies have the ability to offer that service.
    And so I agree with Senator McCaskill about the 
inadvisability of the suggestion made in the budget agreement. 
But, more broadly, I would like to ask what the next steps are 
that you would view as most likely and most achievable to 
address this scourge of robocalls that we both have seen across 
the country.
    Ms. Rosenworcel. Thank you, Senator.
    Like most people, I am not a fan of Rachel from Cardmember 
Services, and I would like to make sure that more people don't 
hear her voice.
    I know that one of the things that we did this past summer 
was we made very clear that it is permissible for 
telecommunications providers to offer do-not-disturb 
technology--in other words, technology that helps block 
robocalls. We recognize that the Do Not Call List itself is far 
from foolproof, so we are looking for technological solutions.
    And, to that end, every week now, the FCC will be issuing 
information about its complaints under the Telephone Consumer 
Protection Act. And it is our hope that, by putting more data 
out there, we will get more innovators to create more 
technologies that could be easily adopted by telecom providers 
and also ultimately available to them at no cost.
    Senator Blumenthal. I want to, since my time is limited, 
talk a little bit about cramming. As you know, that is the 
unscrupulous practice by phone companies and wireless carriers 
to allow third parties to place charges on monthly bills 
without the authorization, often without the knowledge, of 
consumers and often without consumers receiving anything in 
return for those charges.
    Our report on this committee found wireline and wireless 
cramming was a serious issue which caused as much as $2 billion 
a year in fraud. You are well aware of our report, so I am not 
going to belabor all the details.
    The carriers, in my view, must provide clear and 
conspicuous exposure of any third-party charges and must give 
consumers the option of blocking all third-party charges and 
other commitments.
    My question to you is, what can we do to guarantee the 
future fairness of wireless markets for consumers and prevent 
harm to consumers in the future, not just after the fact?
    Ms. Rosenworcel. Right. I am familiar with the report you 
describe. It found that 15 million to 20 million consumers a 
year find that they get saddled with fees on their wireline 
bills that amount to about $2 billion. So the FCC, in the 
aftermath of that, decided to put in place some rules to help 
prevent them. But, no surprise, that fraud migrated to wireless 
bills.
    And what we saw during the last year is we saw settlements 
with the four major wireless providers, settlements between 
$300 million and $400 million in total. And that sent some 
money back to the states, to the attorneys general that helped 
us with that. It also sends some money to the Treasury for a 
penalty. But the bulk of those funds are for refunds for 
consumers.
    And that is a good thing, but if you really think about it, 
we shouldn't be fixing this problem after the fact; we should 
be making sure it doesn't occur in the first place. So I think 
it would be smart to have a rulemaking to take what we know 
from those settlements and make sure that those kind of scams 
and fees don't show up on your wireless bill from the very 
start.
    Senator Blumenthal. I agree.
    And just one last question. Have all the refunds been 
completed? And are there additional settlements that you 
anticipate?
    Ms. Rosenworcel. I don't know the answer to that right now, 
Senator, but I would be happy to get back to you.
    Senator Blumenthal. Thank you.
    Thanks, Mr. Chairman.
    The Chairman. Thank you, Senator Blumenthal.
    Senator Heller?
    Oh, Senator Heller is not here?

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. He has yielded his time to me, so I will--
--
    The Chairman. Senator Booker. Of course he has.
    Senator Booker.--take 10 minutes.
    [Laughter.]
    The Chairman. It is that New Jersey-Nevada axis.
    Senator Booker. It is the Pac-12 alliance, actually.
    First of all, it is great to see you. It is incredible to 
see your family. Your kids are--probably this ranks as the most 
boring experience of their lives----
    [Laughter.]
    Senator Booker.--and they are the most well-behaved two 
people possible. My parents have a saying, ``Behind every 
successful child is an astonished parent.'' But they have 
already astonished me. So it is incredible to see them.
    And I just want to real quick--in January, I introduced the 
Community Broadband Act, having been a former mayor, seeing 
some of the things going on in my city now, the innovations and 
the like. I was happy that the FCC granted petitions to North 
Carolina and Tennessee.
    And I am just wondering, from your opinion, do you agree 
that the Community Broadband Act is necessary? And how do you 
see municipal broadband playing into the larger effort to help 
communities that currently struggle to find affordable, 
accessible, reliable broadband?
    Ms. Rosenworcel. Yes, Senator. And thank you for 
acknowledging my kids like that, but, of course, now that we 
have, they might start to misbehave. That is the way it goes.
    You know, our forbears used to come together in communities 
and build barns together and bridges. This is how we brought 
electricity to our Nation's farms. When communities found that 
the marketplace wasn't delivering for them, they just got 
together and they did it themselves.
    So I think that is fundamentally American. I think our 
democratically elected communities should have this 
opportunity. I believe your legislation reflects that. And I 
don't think it is always easy to deploy, but I think that they 
should have that opportunity.
    Senator Booker. Thank you very much.
    And then Senator Rubio and I, supported by some others, 
introduced the WiFi Innovation Act. You know, the demands on 
spectrum have really increased considerably. And what we did 
back in the 1990s really has tied up a considerable amount of 
spectrum. And I just believe that we should be focused on 
safety first and security, but I do believe that there should 
be more done.
    Now, I was pretty happy to read your blog, which I am sure 
your children found equally boring, but it was exciting to me. 
And you were sort of outlining the importance of freeing up 
spectrum in the 5-gigahertz band.
    What can the Commission do to safely and swiftly move, 
given the demand, that every day we don't meet this demand is 
days without innovation, days without access, days without 
opportunity? What can we do to swiftly move this process 
forward, potentially making this band available for WiFi use? 
And how can the Congress help?
    Ms. Rosenworcel. Thank you.
    I, too, think the upper portion of the 5-gigahertz band is 
very exciting. Back in the late 1990s, we set aside some of 
that spectrum for auto manufacturers to develop safety systems. 
Of course, the world has changed a lot since then. In the late 
1990s, we were not talking about driverless cars or automated 
vehicles. And so work is continuing on auto safety, and that is 
good and important, but we have also seen technology evolve. 
And it is possible now to engage in more sharing in our 
spectrum bands. So we feel like this is a prime place to 
consider sharing for unlicensed, with the auto manufacturers.
    And, as you know, you, Senator Rubio, and Senator Thune 
wrote a letter to us recommending a framework for testing with 
the Department of Transportation and the Department of Commerce 
on the upper portion of the 5-gigahertz band. And I think that 
that is a terrific start. I hope that you check in with us 
regularly, because I think pressure from the Congress keeps us 
on guard and keeps us on course.
    Senator Booker. No, we will.
    And in the remaining time, unlicensed spectrum has become 
really important, and, again, lots has changed since the 1990s. 
In the 1990s, I had hair.
    [Laughter.]
    Senator Booker. And so, you know, with the bipartisan 
budget agreement including provisions to help free up 
additional government-held spectrum for licensed commercial 
purposes, I agree it is a serious need, but I really want to 
see more focus on unlicensed spectrum. I am not going to waste 
the remaining minute that I have on that.
    I do know that you agree with me about how important 
Lifeline is. There are some things that we could do to make the 
program better, but I have heard you say before that it is an 
essential program.
    And so I would just like to ask my last question just 
about, is there a need for Congress to reinstate the minority-
in-media tax credit?
    Ms. Rosenworcel. I think the answer is yes. You know, who 
we see on the screen says a lot about what we are as 
individuals, as a community, and a nation. And media ownership 
says a lot about that. We know that the ownership of major 
media properties is not as diverse as the country as a whole.
    But we also know that to fix that requires access to 
capital. And the most effective tool we had was the minority 
media tax certificate, which was in place from 1978 to 1995. It 
helped to increase the number of minority-owned media 
properties from roughly 40 to over 300. And I believe we should 
look back to that tool and consider how we can use it in the 
future.
    Senator Booker. Thank you very much.
    Mr. Chairman, I see that my brother from the Pac-12 is 
back, so I will yield the remaining time.
    The Chairman. All right.
    He yields back, and we will recognize the Senator from 
Nevada.

                STATEMENT OF HON. DEAN HELLER, 
                    U.S. SENATOR FROM NEVADA

    Senator Heller. Mr. Chairman, thank you. And I yielded for 
a purpose. As usual, as friends, my job is to clean up after 
Stanford grads. So I just wanted to hear what he had to say 
first.
    [Laughter.]
    Senator Heller. But thank you for the hearing. Thank you 
for the hearing.
    And thank you, Commissioner, for coming back and spending 
some time with us. I certainly do appreciate your family being 
here also--and, also, the rest of your family that is on tour. 
I have a son and daughter on tour right now.
    I don't know if you have any jurisdiction over tour buses, 
but I still to this day do not know how 16 people can live in a 
tour bus for 30 days. No hotels, this tour bus, 16 people, 30 
days.
    Ms. Rosenworcel. I know.
    Senator Heller. So, anyway, if you have any----
    Ms. Rosenworcel. No, I am with you on that.
    Senator Heller. I think you have to be under the age of 25 
to enjoy and appreciate something like that.
    But, anyway, thank you for being here, and thanks for 
taking time.
    I want to talk a little bit about FCC reform. And I think 
you are familiar with this. I am concerned that there has been 
a lack of transparency and some openness in certain regards, 
not all regards, but certain regards, with the Commission.
    Several years ago, you came before the Committee for your 
first nomination hearing. I think I laid out at that time some 
of those concerns, and I think many of them still remain today.
    You are probably aware of the FCC Process Reform Act, and 
it is my push for greater transparency in the Commission. It 
does five things, and you have actually spoken on some of them: 
one, the appropriate comment and reply period; two, providing a 
shot clock for items pending review; three, specific language 
of rules before voting on them; four is commissioners' ability 
to collaborate; and one that you did talk about with Senator 
Ayotte, and that was the cost-benefit analysis.
    We have put this together. I think it has passed the House, 
has not yet passed here in the Senate. And I will urge my 
chairman to continue to work on this particular piece of 
legislation.
    Is there anything else, any other commonsense measures that 
can be addressed by this commission and yourself, personally, 
that you believe would bring greater transparency to the 
Commission?
    Ms. Rosenworcel. Thank you, Senator.
    Obviously, transparency is important. I am not sure that 
these things require congressional action. But I think it would 
be valuable for the public to have a list of the decisions that 
are presently before the commissioners, along with a brief 
description, so that it surprises no one when a vote emerges 
from the agency.
    I think it would also be valuable to have a systematic way 
for those who petition the agency for relief to find out 
exactly where their petitions stand in the process.
    Senator Heller. Yes, I think there is some concern for 
that, actually, a priority that you identified, and that was 
certainty to some of these companies. That is essential to 
promoting investment, fostering innovation, creating jobs.
    Do you believe that it would provide more certainty to 
these companies if a shot clock was available? Specifically, 
what are your feelings on that?
    Ms. Rosenworcel. Yes, well, I mean, this might occasionally 
be a statement against interests, given where I work, but I 
think shot clocks and deadlines are really important. They have 
a way of motivating us toward action. So in any legislation 
that emerges from this committee or oversight of the FCC, I 
would certainly encourage you to pressure us to have more 
deadlines in the work that we do.
    Senator Heller. If I can bring up for a minute another 
piece of legislation, the FCC Consolidated Report Act. Again, I 
think it is something that you are familiar with, especially 
with the time you were working for then-Chairman Rockefeller.
    Looking at this piece of legislation, as I see here, this 
report, I think the chairman did a great job in trying to meet 
some of the values on both sides of the aisle here. It has 
passed the House, and we are at a standstill right now, and I 
think that is kind of unfortunate. I think both sides--and I am 
not talking Republican/Democrats, I am talking two houses that 
really need to come together and try to work this out.
    Can you speak to the importance of having a single report 
like this?
    Ms. Rosenworcel. Sure, Senator. I think the greatest value 
in that legislation is, candidly, we have some reports that we 
have to produce annually that are a waste of commission 
resources.
    Senator Heller. Is this one of them? All these reports, is 
that a waste of----
    Ms. Rosenworcel. All the reports are not. And there are 
also ways in which longitudinal data that is issued every 
year----
    Senator Heller. Some of us do read them, by the way.
    Ms. Rosenworcel. What is that?
    Senator Heller. Some of us do read them.
    Ms. Rosenworcel. Yes. I do.
    Senator Heller. But having a single report, I think, would 
be very advantageous for all of us here.
    Ms. Rosenworcel. Sure. Although I think it was a report 
every other year. And the only point I would make is that the 
Internet age moves really fast. We want to make sure our 
decisions are informed by data. And perhaps doing this with a 
little more frequency or maybe having an intermediate----
    Senator Heller. That is a good point. That is a good point.
    Ms. Rosenworcel.--effort would give us the kind of data 
that would support better decisionmaking. So that would be the 
only pause I would have.
    Senator Heller. Yes.
    Ms. Rosenworcel. Though I don't think the legislation would 
preclude us, for instance, from doing those kinds of things.
    Senator Heller. If I could encourage you to work with us, 
you know, as we move forward and continue to grapple with this 
particular issue. You do make a good point on how often these 
reports should be available. But having consolidated reports, I 
think, for all of us here in trying to do our jobs, would be 
very, very helpful.
    Ms. Rosenworcel. OK.
    Senator Heller. Thank you.
    Mr. Chairman, thank you.
    The Chairman. Thank you, Senator Heller. And let me just 
add, your good work on FCC reauthorization has been a good 
foundation for us to build on.
    And I hope that the Commission will work with us on that, 
and I think it would get at some of the issues that have been 
raised today. Earlier, you heard Senator Blunt talk about 
responsiveness. And I just think having a more regular 
reauthorization process would perhaps bring the Commission up 
here and get them to be reacting and responding to us on a more 
regular basis, which might address some of the concerns that 
were raised earlier as well as creating the kind of 
transparency for the public that they deserve and expect.
    Senator Heller. Thank you, Mr. Chairman.
    The Chairman. So I hope that we can continue to move 
forward with that and that the Commission will be a cooperative 
partner in that.
    Senator Moran was going to be up, but Senator Klobuchar has 
returned. So the Senator from Viking country is recognized.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Very good. Who have a winning record so 
far, as you know. Thank you very much.
    Thank you so much, Commissioner, for being here. And I know 
that a lot of my major bills and issues have been discussed, 
and you are certainly knowledgeable about them.
    The call-completion bill, I know you have talked about 
that, and that continues to be a problem. I just did a forum 
with Collin Peterson about that a few months ago, with the 
dropped calls. So I will let your answers on that stand.
    The spectrum bill that you have mentioned several times, 
which I appreciate, with Senator Fischer.
    The work that Senator Thune and I are doing on trying to 
get more funding from the Universal Service Fund for broadband, 
which I think is the number-one thing I have been hearing. It 
feels like a complete resurgence of interest in this issue.
    And I attribute it to a few things. Number one, the economy 
is better, so people are working; they need broadband. Number 
two, technology has shifted, and so this is no longer just, 
``Oh, do we have broadband?'' which many of them have. It is, 
``Do we have high-speed broadband?''
    And I cannot tell you the number of businesses and managers 
that go to the McDonald's parking lot in rural areas to do all 
of their bookkeeping and their work because they don't have 
high-speed enough broadband, or the kid on a reservation that 
goes to one house, and you have 20 kids standing in a backyard, 
because that is where they have WiFi.
    So I think you understand the enormous need here and also 
the great opportunities.
    One thing that I don't think has been focused on as much, 
Senator Daines and Gardner and I introduced the Streamlining 
and Investing in Broadband Infrastructure Act to implement the 
Dig Once policies on Federal highway construction projects and 
streamline GSA policies.
    What else do you think the FCC and Congress can do to 
promote more efficient permitting procedures at the Federal 
level to reduce construction costs and speed up deployment?
    Ms. Rosenworcel. Yes, Senator. Thank you. I think Dig Once 
policies are terrific. They should be put in place all across 
the country. Because when crews are repairing or building 
roads, adding broadband conduit adds less than 1 percent to the 
price of the project, but we get lots of rewards down the road 
when we do so. Plus, it minimizes disruption for communities, 
and they like that.
    I think there are other things we can do. I think we have 
particular problems on Federal lands in this country. About 
one-third of our lands are Federal, and we should come up with 
practices that make deployment on those lands easier. We should 
have a shot clock for the Federal Government to respond, just 
like we do for municipalities.
    We should have a regular GSA schedule to make sure that 
everybody knows how to deploy and gets a standard contract. And 
we should have a list of Federal assets that could be used to 
help with deployment on Federal lands.
    And if we combine those things, I think we would wind up 
having much greater state of deployment on the ground.
    Senator Klobuchar. Very good.
    Can you talk a little bit about investing in broadband 
adoption? There are places that have broadband but people just 
aren't educated yet on how to use it.
    Ms. Rosenworcel. Yes. You know, we have historically 
focused on broadband deployment at the agency. That is an 
infrastructure challenge. Broadband adoption is just as 
important if you want people to take full advantage of the 
civic and commercial opportunities it provides.
    I have focused extensively on what I call the homework gap, 
because we are finding that there are 5 million households in 
this country that have school-age children that don't have 
broadband at home. So kids have to go to that McDonald's 
parking lot or line up where there is a WiFi signal. And that 
is just an especially cruel part of the digital divide, and I 
think it is something we should fix.
    Senator Klobuchar. OK. Very good.
    Smartphone theft, you know I have done work on this, and 
the carriers have voluntarily agreed to install kill switches. 
Do you have any updates? I know the FCC has been helpful in 
this area.
    Ms. Rosenworcel. Yes. Look, more than one in three thefts 
in this country now involves the theft of some smartphone 
device.
    Carriers are now working with us to help with remote lock 
and wipe capabilities, making them opt out. In other words, 
they are available on new handsets. And we are starting to get 
that in place.
    We also have to improve the data bases for stolen phones 
not just nationally but internationally so we reduce the 
possibilities of thieves making money off those devices when 
they are stolen.
    Senator Klobuchar. Speaking of internationally, a different 
issue but an international one, when it comes to wireless 
service or broadcast service along our northern border. As you 
know, I can see Canada from my porch. And we need to make sure 
that there are no problems with interference.
    This is an issue I have discussed with the FCC many times 
in the past, and I was glad to see the FCC announced a 
statement of intent with Industry Canada for coordination in 
the upcoming incentive auction.
    Are you committed to continuing to work with Canada 
throughout the auction process and beyond to ensure that there 
are no interference problems?
    Ms. Rosenworcel. Yes, Senator.
    Senator Klobuchar. OK. Very good. Thank you.
    And, last, unlocking. The Wireless Consumer Choice Act, as 
you know, asks the FCC to take action. I introduced that. And I 
know the FCC took action and is committing wireless carriers to 
unlock consumer phones and that they have met this commitment.
    Do you think there is a further role for the FCC in 
advancing unlocking, or do you think it has pretty much been 
done?
    Ms. Rosenworcel. I think we have made tremendous progress. 
And, yesterday, the Library of Congress announced its most 
recent set of exemptions under the Digital Millennium Copyright 
Act and made clear that both tablets and cell phones are 
eligible for unlocking. So it is my great hope that this 
problem has passed.
    Senator Klobuchar. Well, thank you.
    And, last, I just want to thank you for your extreme amount 
of preparation for this hearing. Senator McCaskill and I were 
amused that you just could reel off these statistics without 
looking at one note. So you should be--we are all impressed by 
that.
    And, also, having a woman in your role is great. I know you 
have been working on getting more women in technology. And 
Senator Capito and Scott and I head up the Diversifying Tech 
Caucus, so we will have you come to speak at one of our 
meetings.
    Ms. Rosenworcel. Fantastic. I would like that.
    Senator Klobuchar. Thank you very much. Appreciate it.
    The Chairman. There are certain advantages to knowing what 
members of this committee are going to ask----
    [Laughter.]
    The Chairman.--having been up here all those years, right? 
It is good preparation.
    All right. Now, the gentleman who is wearing his Kansas 
City Royals blue today----
    [Laughter.]
    Senator Moran. Thank you for noticing.
    The Chairman.--is up next.
    Senator Moran. I thought if Senator Klobuchar was 
representing the Vikings, I was pleased to represent the 
Royals, along with Senator McCaskill.
    Senator McCaskill. Very good.

                STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Commissioner, thank you very much.
    Chairman and Ranking Member, thank you for this opportunity 
to have Commissioner Rosenworcel with us again.
    And let me express my gratitude to you and other members of 
the Commission who have been attentive to issues that I have 
raised on behalf of Kansans and Americans, and I appreciate the 
relationship that we have and your responsiveness. So thank you 
very much. It is valued.
    Let me ask just a few questions.
    First of all, while Senator Klobuchar indicated that you 
had addressed the issue of call completion, I was not certain 
of that. I didn't hear what you said, I guess is maybe a better 
way of saying that. It seems to me that you have taken steps, 
but I am not sure I have seen the evidence that call-completion 
rates have improved.
    Is my impression wrong?
    Ms. Rosenworcel. No, you are right, Senator. I, too, am not 
yet satisfied with the situation we find ourselves in. We know 
this is a real problem for rural carriers and residents of 
rural America. And it is just not acceptable when calls don't 
go through.
    Now, what we have done is we issued a declaratory ruling to 
make clear that this was a violation under the law, to not 
transmit and complete those calls.
    We have had some enforcement actions, but what we realized 
during the course of those enforcement actions was we lacked 
the data to really go after bad actors. So we put in place new 
reporting obligations for originating long-distance providers.
    And those obligations just kicked in. We have our first set 
of reports from them. We are going to comb through them, not 
just look for bad actors, but look for patterns so that we can 
make sure that we get rid of this problem once and for all.
    Senator Moran. So there is a way to develop the evidence 
necessary to determine where the problem lies?
    Ms. Rosenworcel. That is exactly right.
    Senator Moran. That is very encouraging.
    You indicated you understand it is importance. And I would 
only reiterate that, you know, one of my focuses as a member of 
Congress has been trying to keep rural America alive and well. 
And it is so discouraging to talk to a business owner who knows 
of failures of call completion, failures of the call, there is 
no completion, but they don't know how many others they are 
missing--the lost opportunity.
    And my guess is that if you make that call to a rural 
business, the call is not completed, you are unlikely to try a 
second or third or fourth time to become a customer, as we try 
to keep businesses located in rural communities across our 
state and the Nation.
    So please keep your attentive eye to this topic.
    Again on a rural issue, one of my rural telephone companies 
has told me that, although they have been designated as one of 
the Commission's 100-percent overlap areas, they have been 
measuring the competition's signal and find it almost 
nonexistent.
    And my question is, what steps does the Commission take to 
confirm that their determination is accurate and maintained?
    Ms. Rosenworcel. Yes. We have a defined challenge process 
for our price-cap carriers at present, which allows carriers 
who believe that they are deploying and the incumbent should 
not be supported and also incumbents who believe that we are 
wrong about our information about private-sector entities that 
might have deployed.
    We also have a process for our rate-of-return----
    Senator Moran. Suggesting that there is a process by which 
the phone company----
    Ms. Rosenworcel. Yes.
    Senator Moran.--can make this fact known to the Commission?
    Ms. Rosenworcel. Absolutely.
    It is a challenge process. We are interested in that 
information. We have taken some in to date on our price-cap 
carriers. I think we are still doing some work on our rate-of-
return carriers. But we do have a defined challenge process 
where they can voice that concern before us and we will 
investigate.
    Senator Moran. Is that something that is affordable to a 
small rural telephone company, that process?
    Ms. Rosenworcel. The goal of that process is that they can 
come before us and point it out to us and then we go 
investigate.
    Senator Moran. OK. So they don't have to develop the case 
to present to you. They present the allegation, their 
statement, and then the Commission investigates?
    Ms. Rosenworcel. That is right. But, obviously, more 
evidence is usually helpful, because it allows us to get our 
investigation underway.
    Senator Moran. On a broader issue about spectrum, Senator 
Udall and I and a number of members of this committee had 
solicited information from the administration, particularly 
from OMB, in regard to the Spectrum Relocation Fund. And OMB, 
to their credit, was very specific with policy recommendations, 
legislative changes.
    That legislation has been introduced. I think, fortunately, 
it has been included in the budget agreement and so is 
potentially on the path to becoming law. I would be happy to 
have any general comments you might want to make about their 
recommendations.
    But I wanted to specifically raise the question with you 
about unlicensed spectrum. There isn't really any effort that I 
can see underway to increase the chances that unlicensed 
spectrum--that as we relocate Federal spectrum to someone else, 
that it seems to me there is no emphasis on unlicensed 
spectrum.
    And I would welcome your input if there are policy 
suggestions that you would have of how we enhance the chances 
that that might occur.
    Ms. Rosenworcel. OK.
    First, I think that this committee's correspondence with 
the Office of Management and Budget was terrific, and we are 
already seeing benefits, in that we are rethinking the 
possibilities of adding incentives to the Spectrum Relocation 
Fund. I think that is exciting and is going to yield more 
spectrum for commercial markets down the road.
    Your point on unlicensed is well-taken. I think the 
Congressional Budget Office traditionally values licensed 
spectrum over unlicensed, by virtue of the fact that by 
auctioning spectrum that raises funds. But what they miss in 
that accounting is that unlicensed spectrum is tremendously 
beneficial for our economy at large. We have over $140 billion 
of economic activity every year that relies on unlicensed 
spectrum.
    So it would be my hope that if you did have an opportunity 
to produce more spectrum legislation down the road, you would 
consider doing what you have done in the past, which is making 
sure in every piece of legislation that has commercial auctions 
there is also a cut for unlicensed or a WiFi dividend.
    Senator Moran. Well, I appreciate your reminding us of 
that. I assume one of the challenges, just perhaps the 
congressional nature, administration nature, is when we are 
looking for an offset, you are looking for something that 
raises revenue. And that would be a very shortsighted decision 
to focus solely--it would be a very shortsighted economic 
decision to focus solely on spectrum that is licensed.
    Ms. Rosenworcel. I agree with you completely.
    Senator Moran. Thank you very much.
    Thank you, Chairman.
    The Chairman. Thank you, Senator Moran.
    And we will turn now to Senator Peters.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Mr. Chairman.
    And to Commissioner Rosenworcel, thank you so much for 
being here and answering all of our questions.
    And, actually, I would just pick up on the comments made by 
Senator Moran on the unlicensed WiFi use and how we want to 
make sure that we are expanding that. But I wanted to thank you 
for your work that you have done related to the 5.9 gigahertz 
area, which you have been committed and said you are committed 
to opening up a process to make sure that we are doing the kind 
of interference testing to know that the auto industry, which 
has that portion of the spectrum, can continue to operate 
effectively and safely, particularly given the technological 
breakthroughs that are occurring right now in that space.
    And I know you were at Mcity just recently in my state, in 
Michigan. And before I talk about that, I just want to mention, 
you know, I just had the opportunity this last week to see the 
vehicle-to-vehicle technology in real time, driving on a road 
in the community.
    And we were able to have automatic braking, even if you are 
blinded by a car that may be in front of you that then swerves 
out of the way. Because of vehicle-to-vehicle technology, you 
know the car ahead of you is slowing, you are able to stop.
    I mean, that is a major cause of accidents right now, if 
you are following a car that then swerves out of the way, then 
suddenly you find a stopped car in front of you or one slowing 
down. With V-to-V, you are actually able to know that, or your 
systems know that. You are able to know when cars are around 
blind spots and stop.
    I mean, it is incredible stuff that is happening. I know 
you saw some of that in Michigan.
    And I just wanted to remind everybody that these 
technologies are expected to eliminate up to 80 percent of all 
crashes, of unimpaired accidents in this country. In a time 
when 30,000 people die on our highways, this is a big deal. 
This is about safety. We are on the verge of seeing these 
incredible developments now being deployed commercially.
    The Mcity that you visited at the University of Michigan is 
a 32-acre test track that allows us to fully test and put 
together the systems in order to deploy this on a wide basis. 
You are also going to see thousands of vehicles throughout 
southeast Michigan that will be testing these systems, as well, 
in the short term, in the months ahead and in the years ahead.
    I know that FCC Chairman Wheeler was also able to visit 
Mcity. I think just yesterday he was there.
    But before I ask a question, a more broad question, first, 
tell me about your reflection. What was your takeaway from 
Mcity and what the auto industry is doing with this 5.9 
gigahertz?
    Ms. Rosenworcel. Yes. Thank you, Senator.
    The future of connected cars is big. It is really big. By 
the end of the decade, I think the statistic is that 97 percent 
of the cars shipped in this country are going to be Internet-
connected. They are going to be, in effect, mobile phones on 
wheels.
    Mcity, which I was privileged to see just before it 
opened--and you probably cut the yellow ribbon.
    Senator Peters. I did.
    Ms. Rosenworcel. Yes--is the testing ground for all of that 
next-generation connected car activity. It is exciting that it 
is there in the backyard of the auto industry. And I think it 
is going to be an incredible hub of economic activity. So I 
would like to actually go back and see, as new developments 
arise, testing on the Mcity grounds.
    As far as 5.9 gigahertz, I think you know that I have 
spoken about how it is possible for the auto industry to share 
that spectrum, potentially, with unlicensed services.
    But the most important thing that we are doing right now 
is, at the direction of this committee, we are working with the 
Department of Transportation and the Department of Commerce to 
set up testing. And it is vitally important that when we test 
the use of this band by both services, that we make sure that 
safety is intact.
    Senator Peters. Well, I appreciate that. And, obviously, 
these are going to be issues that we are going to be dealing 
with in the future, kind of the historic tensions between more 
traditional companies and then all of the innovators that want 
to be able to take a piece of that.
    I mean, how do you see that just generally, not just for 
the auto industry, but other traditional industries that are 
innovating at a rapid pace, and yet they are going to be facing 
new innovators that are introducing disruptive technology as 
well?
    Ms. Rosenworcel. Well, I do think that connected 
technologies are going to be a part of every industry going 
forward, wireless technology in particular. The car industry is 
one that embodies that more than any other. And while there are 
challenges, I think the opportunities are enormous.
    Senator Peters. One last question in my time remaining 
here. And I have heard you respond to some questions related to 
the work on the homework gap. And I wanted to thank you for an 
op-ed that you wrote in one of the Detroit newspapers talking 
about that homework gap, where it is clear that roughly 7 in 10 
teachers assign homework to their students that require 
Internet access, and yet in Detroit, for example, it is almost 
a complete opposite, where 7 in 10 students do not have access 
to the Internet. So it is a significant issue.
    I know you have been very supportive of updating the FCC's 
Lifeline program to allow consumers to choose between applying 
the program support to broadband service rather than voice 
service. Could you give us an update on the FCC's efforts on 
that front? And where do you see that going?
    Ms. Rosenworcel. Yes, Senator. We have an open proceeding 
on that, and I think that, moving forward, if we want to 
modernize Lifeline, we have got to make sure that it is a 
program that is run without any abuse, and then we have to 
figure out how to make sure it reflects modern services. That 
is the goal of our effort.
    It is my hope, too, that if we do that correctly, we will 
have another tool to help support households that do not have 
Internet access and particularly those households that have 
kids who simply need to do their homework.
    Senator Peters. Great. Thank you so much.
    The Chairman. Thank you, Senator Peters.
    And the Ranking Member, Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Senator Peters, I wanted to recall, when I 
went to your city, Detroit, and because of the allocation of 
spectrum, I am in a car going to a blind corner that there is 
another car, and, all of a sudden, this car that can't see this 
car coming through that intersection stops, stops on its own. 
That was impressive.
    Now, I am not sure that I am ready to get into a car that 
drives itself----
    [Laughter.]
    Senator Nelson.--but that application of spectrum was very 
instructive and, I think, very optimistic of how we might use 
spectrum in the future.
    Mr. Chairman, if I may, since I was engaged earlier in the 
morning, enter into the record an opening statement?
    The Chairman. Yes, sir.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Good morning, and thank you to Chairman Thune for holding this 
hearing to consider this important re-nomination.
    Commissioner Rosenworcel, congratulations on your re-nomination. 
You have served with distinction and not surprisingly, have established 
yourself as a reasoned, thoughtful, and bipartisan leader on the 
Commission since your confirmation.
    The FCC has the critical responsibility for overseeing and 
supporting our Nation's dynamic communications networks and 
marketplace. Given the blistering pace at which these networks are 
evolving, we must have an expert oversight agency with flexible, 
forward-looking authority to protect consumers and competition. And as 
we look to what's ahead, we need regulators who are not afraid to use 
that authority when necessary, but also know when to exercise authority 
with humility and a regulatory light touch. Your tenure on the FCC has 
proven you to be just such a public servant.
    The future may be uncertain, but I agree with you that, as the 
Commission tackles its important work, it must be guided by the 
fundamental principles that have helped U.S. communications networks 
thrive and lead the world for so many decades. Consumer protection, 
public safety, universal access, and competition must continue to be at 
the forefront of the FCC's actions.
    Thank you again, Commissioner Rosenworcel, for your commitment to 
public service and your willingness to serve. This Committee should 
advance your nomination expeditiously, and I hope for and expect speedy 
action on the Senate floor in favor of your nomination.

    Senator Nelson. And at the request of Senator Schumer, I 
want to also enter into the record a letter from the general 
counsel of the mayor of New York.
    And I would like to just quote, speaking of Commissioner 
Rosenworcel: ``Her championship of modernization and reform of 
the E-Rate and Lifeline programs are two examples of her 
fierce, determined commitment to expanding public access to 
high-speed broadband for working families.''
    And it goes on in another paragraph to say, ``Her work as 
an FCC commissioner is not only helping children and families 
access the Internet but also helping communities like ours to 
build stronger schools, improve city services, and unleash more 
entrepreneurial and creative potential.''
    And that is from the City of New York. If we could enter 
that into the record.
    The Chairman. Without objection.
    [The information referred to follows:]

                  The City of New York--Office of the Mayor
                                     New York, NY, October 28, 2015

Hon. John Thune,
United States Senate
Washington, DC.

Hon. Bill Nelson,
United States Senate
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    I write in support of the Honorable Jessica Rosenworcel 's 
confirmation for a second five-year term as commissioner at the Federal 
Communications Commission (FCC). Throughout her tenure, Commissioner 
Rosenworcel has assumed a key role in shaping America's digital future 
and empowering children, families, businesses, and new ideas.
    In New York City, home of the second largest tech sector in the 
country, we have relied on Commissioner Rosenworcel to help protect the 
open Internet and prevent Internet Service Providers from 
discriminating against certain content and services online. She has 
been an ally and a champion for enacting the strongest possible rules 
against blocking, paid prioritization, and other discriminatory 
practices limiting our Internet access.
    Of particular note, Commissioner Rosenworcel recognizes the primacy 
of technology, especially Internet access, in children's education and 
lives. Her championship of modernization and reform of the E-Rate and 
Lifeline programs are two examples of her fierce, determined commitment 
to expanding public access to high-speed broadband for working 
families. Commissioner Rosenworcel's focus on the homework-gap has 
inspired cities like New York City and others to take bold steps to 
address this issue, and in tum, inform the FCC's work. The New York 
City and Brooklyn Libraries' MIFI pilot is one such initiative to 
expand Internet access and promote digital literacy throughout 
underserved communities, by lending portable Wi-Fi hotspots.
    Her work as an FCC commissioner is not only helping children and 
families access the Internet, but also helping communities like ours to 
build stronger schools, improve city services, and unleash more 
entrepreneurial and creative potential.
    Over the past five years as commissioner, she has shown a steadfast 
commitment to ensuring that the Internet remains a tool for advancing 
goals related to equity, education, innovation, economic growth, and 
smart and responsive government. New York City strongly supports 
Commissioner Rosenworcel, and I urge Congress to support her speedy 
confirmation.
            Very truly yours,
                                                Maya Wiley,
                     Counsel to New York City Mayor Bill de Blasio.

    Senator Nelson. And speaking of that, Commissioner, on E-
Rate, just talk generally again, to add to what you have 
already said, about the importance of E-Rate to students, 
teachers, librarians, and communities.
    Ms. Rosenworcel. Sure. Thank you, Senator.
    Knowledge, jobs, and capital are going to flow to 
communities that are more connected and communities that are 
more educated. We can use the E-Rate program to update 
education in our schools and give more students the skills to 
participate in the digital-age economy. I think that is really 
exciting.
    I think it also offers other benefits, because when we 
deploy service to our schools, we make it incrementally less 
expensive to deploy modern services to the community that 
surrounds them. So infrastructure improves writ large.
    Senator Nelson. May I, on another subject, make a plea on 
behalf of telephone consumers, that when they sign up for the 
Do Not Call List, it is not working----
    Ms. Rosenworcel. I know.
    Senator Nelson.--people are still calling?
    And I hear this all the time, even to the point at which I 
have some friends, a former Member of Congress, that they have 
taken out a hard line. They only use the cell phone, because 
they were getting so many calls around dinnertime, even though 
they put it on.
    Anything we can do about that?
    Ms. Rosenworcel. Thank you, Senator. As I was saying 
earlier, I can't stand robocalls either. I don't think there is 
anyone in this entire country who likes them very much.
    I would point out to you that the Do Not Call List only 
works so much. We know it is not foolproof. So the FCC, this 
past summer, made clear that do-not-disturb technologies are 
lawful in order to help provide a technological solution to 
reduce the number of calls.
    But you also asked if there is anything that Congress can 
do, and I will just point to this. The Telephone Consumer 
Protection Act is a law from 1991. It is old, and it treats 
wireless phones and wired phones differently, just as you 
described. And given that about 40 percent of our households 
now are wireless-only, I am not sure that that differential 
treatment anymore makes sense. And it might be something that 
it is worthwhile for this committee to address.
    Senator Nelson. And, of course, the trend of the future is 
we are going to have these tablets with us, and that is how we 
are going to continue to communicate. And I see that among many 
of our friends. They don't even have a wireline coming into 
their house for a telephone.
    Now, Do Not Call List is one thing, but spoofing is another 
thing. And for the record, I just want to tell, since the 
spoofing technology has evolved since the law that we passed in 
2010, and now the scammers are getting more sophisticated, and 
they are calling from abroad, and they are using text messaging 
services.
    CNN reported the story of Albert Poland, an 81-year-old who 
received nonstop calls from a person claiming to be a part of a 
Jamaican lottery that he had won the lottery. And this 81-year-
old ended up giving away thousands of dollars until he realized 
he had been had, and that drove him to suicide.
    And so a number of us have introduced a phone scam act. It 
would improve that 2010 law by going after offshore spoofing 
criminals and those who try to pull off these scams. But it 
would also encourage the FCC to work with the private sector on 
new technologies that could protect consumers.
    Do you agree with all this?
    Ms. Rosenworcel. Yes, I do, Senator.
    Senator Nelson. And, finally, any further comment on 
spectrum, of what role Congress can play to support your 
efforts and to ensure adequate spectrum availability for all 
the wireless services?
    Ms. Rosenworcel. Thank you, Senator. I think two things.
    First, while I recognize that in the most recent budget 
deal there is opportunity for more airwaves to be pushed to the 
FCC for commercial auction, I would just say that we need a 
steady and strong spectrum pipeline and that you not stop with 
that legislative effort. So continue your work on the spectrum 
pipeline.
    Second, though most of our focus is on the airwaves, the 
ground also matters. Coming up with better deployment policies 
for cell towers, for small cells, making sure that our 
practices are modern, is also worth your time and effort.
    Senator Nelson. I was encouraged when we started talking 
about cell towers the other day, and I was noticing that the 
technology is getting very sophisticated, where these towers 
can be very small. They can go on the arms that come out for 
stoplights at intersections and so forth.
    And yet also reminded that, in many other foreign 
countries, you can be in the middle of the desert in Somalia, 
and you can get cell service, which we are continuing to lack 
in many places in this country. And so we have a way to go. You 
keep that in mind.
    And then, finally, I want to thank the chairman publicly 
for his willingness and the willingness of his staff to 
continue the dialogue as we work on the issue of net 
neutrality. We have come a long way, baby, since the beginning 
of this Congress, since the end of the last Congress, and we 
are narrowing the differences.
    And so, whether it is Title X or something else, the 
chairman has certainly been willing to dive in, and I want him 
to know how much I appreciate that.
    The Chairman. Thank you, Senator Nelson. And if it is Title 
X or we give it some sort of Florida designation in your honor, 
as long as we can get to the finish line, that would be great. 
We will continue to work on that, and I think providing 
certainty and clarity and some clear rules for an open Internet 
would be something that would be a worthwhile effort of this 
Congress. So we appreciate you and your staff's continued 
discussions and participation with ours in trying to reach a 
solution.
    Commissioner, I just wanted to ask one last question, to 
bring it back to E-Rate. You have answered several questions on 
that today, but when the E-Rate program was expanded, it was a 
significant increase in the cap, when you go from $2.3 billion 
to $3.9 billion a year, which in turn has significantly 
increased the universal service fees on the American public by 
more than $15 billion over the next decade.
    So the question I have is, does the new E-Rate program 
guarantee that those schools which currently lack adequate 
communications will receive support ahead of schools that 
already have adequate facilities? I mean, the goal of this 
ought to be to extend that access to those schools that 
currently lack it.
    Ms. Rosenworcel. Yes, Senator. Thank you.
    The E-Rate system has prioritization built in for the 
lowest-income and most rural schools to get the most benefit. 
So that is in some ways a proxy for what you describe.
    But I would say that our reforms generally are designed to 
make sure that the benefits are available more broadly. We got 
rid of some old services, some legacy services. We put new 
incentives in for efficiency. And the goal behind all of that 
modernization was to make sure that those benefits touched 
schools that had historically not been touched by this program, 
and in particular Category Two services, which in this case 
involves WiFi.
    The Chairman. OK. Well, I would just say that connectivity 
for all the schools, particularly those that currently don't 
have that, ought to be a priority. And those who are paying 
these fees, I think, would certainly want to see those funds 
used in a way that extends that connectivity to all the schools 
across this country.
    Well, with that, I think we have reached the end of the 
line, I am sure as you will be glad to hear. And your 8-year-
old daughter, I am sure, when she and her classmates are 
talking about unlicensed spectrum----
    [Laughter.]
    The Chairman.--will be way ahead of the game.
    But we thank you again for being here today, and we will 
look forward to processing your nomination.
    We will keep the record open for an additional 2 weeks for 
members to submit questions, and I would ask that you be as 
prompt as possible in response to those questions.
    Ms. Rosenworcel. Of course.
    The Chairman. So thank you.
    And this hearing is adjourned.
    Ms. Rosenworcel. Thank you.
    [Whereupon, at 11:49 a.m., the hearing was adjourned.]

                            A P P E N D I X

   Prepared Statement of Hon. Tom Udall, U.S. Senator from New Mexico
    I want to preface my remarks by stating that I am pleased that the 
budget agreement announced this week has important spectrum policy 
reforms.
    This agreement mirrors the Spectrum Relocation Fund (SRF) 
legislation introduced by Senator Moran and me. We have been working 
closely with Chairman Thune and Ranking Member Nelson on this issue 
since April. SRF reform will promote innovation and fuel economic 
growth by making more spectrum available for commercial use.
    Commissioner Rosenworcel, let me begin by saying that I strongly 
support your re-nomination. As FCC Commissioner, you have demonstrated 
a deep commitment to public service. And you have consistently 
supported smart policies to promote the public interest. One example is 
your idea to create an ``X Prize'' for spectrum efficiency. I plan to 
introduce legislation soon to make this happen.
    I also look forward to continuing to work with you on efforts to 
expand broadband to rural and tribal communities. Seventy-seven percent 
of New Mexicans living in rural areas lack access to fast broadband 
speeds. The Acoma Pueblo library keeps its WiFi running 24/7. Folks 
drive to the parking lot to get Internet access, even when the library 
is closed.
    So I appreciate your commitment to closing the ``homework gap'' 
that drives children to search for public WiFi hotspots. School kids 
today often need Internet access to complete assignments. But too many 
cannot get online at home, either due to cost or lack of access.
    Too many New Mexicans also know what it is like to be stuck in an 
Internet ``slow lane.'' The FCC's Open Internet order will ensure the 
Internet remains a platform for free expression, promotes innovation, 
and helps online entrepreneurs compete on a level playing field with 
established companies. Thank you again, Commissioner Rosenworcel for 
your support for net neutrality.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                        Hon. Jessica Rosenworcel
    Question 1. I'd like to ask you about the FCC's October 
announcement that it would launch an investigation into four telecom 
companies over special access tariffs. Despite this announcement, it is 
my understanding that the Commission has not completed its analysis of 
the extensive special access data it has already compiled.
    Considering the FCC's limited resources, how is it prudent for the 
FCC to launch full-scale investigations when it hasn't even completed 
its own due diligence on the topic? And what happens now to the 
unfinished analysis of the previously collected data?
    Answer. As you note, on October 16, the Commission's Wireline 
Competition Bureau initiated an investigation of the terms and 
conditions of select incumbent local exchange carrier tariff pricing 
plans of AT&T, CenturyLink, Frontier and Verizon for business data 
services. The Bureau's investigation arises out of allegations from 
some parties that certain terms and conditions in business data 
services tariffs are unreasonable and lock up demand for TDM-based 
business services, which may harm competition and innovation. These 
allegations are disputed by incumbent LECs. The Bureau's order 
initiating the investigation makes clear that ``[n]othing has yet been 
decided on the merits.'' Rather, the Bureau is ``seek[ing] additional 
data from the incumbent LECs on which to base an objective evaluation 
of the reasonableness of the tariff pricing plan terms and conditions 
that are designated for investigation.'' To this end, the tariffs 
remain lawfully in place during the investigation.
    Meanwhile, the Commission has a separate rulemaking related to 
special access services that is ongoing. That rulemaking focuses on the 
current state of competition in the special access market and how best 
to measure competition in the future. The Commission has undertaken a 
data collection as part of that rulemaking and, in September, the data 
was made available for public review subject to the terms of a 
protective order to safeguard competitively sensitive information. 
Public comments relating to the rulemaking are presently due on January 
6, 2016 and reply comments are due on February 5, 2016.
    Although the Commission's investigation into tariff terms and 
conditions ``is based on the record generated'' in its rulemaking 
proceeding, it ``is being initiated and will be conducted as a separate 
proceeding.'' I believe both the investigation and rulemaking are 
lawful under the Communications Act. However, I recognize that it is 
important to harmonize our policies across proceedings, including those 
involving special access.

    Question 2. As you know, authorizing the FCC has been a stated 
priority for me this Congress. This is an area where I believe 
Republicans and Democrats of this Committee should come together to 
ensure the FCC is responsive to the needs of our constituents. As a 
former Senior Communications Counsel on this committee, you understand 
our committee's role and jurisdiction as well as anyone.
    Setting aside the debate over certain ``process reforms,'' would 
you welcome legislation to reinstitute regular oversight and 
authorization of the Federal Communications Commission by the Congress?
    Answer. Yes.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Deb Fischer to 
                        Hon. Jessica Rosenworcel
    Question 1. Commissioner Rosenworcel, in June 2015 the FCC adopted 
an order that imposed new requirements on businesses pursuant to the 
Telephone Consumer Protection Act (TCPA). I have heard from several 
business owners in Nebraska who are concerned about the burdens that 
the TCPA will impose on them, including the threat of class action 
lawsuits. You actually dissented from part of the decision because it 
permitted certain industries to obtain waivers of the TCPA rules. 
Please address the following concerns raised by business owners 
regarding the new TCPA rules:

    Question 1a. Businesses need to have to have prior express consent 
to contact consumers on their cell phones using an autodialer. Some 
businesses, however, are concerned that the FCC has expanded the 
definition of ``autodialer'' to include smartphones. Is this the case? 
What certainty can you give businesses about this new definition?
    Answer. The TCPA defines an ``automatic telephone dialing system'' 
as ``equipment which has the capacity--(A) to store or produce 
telephone numbers to be called, using a random or sequential number 
generator; and (B) to dial such numbers.'' In the June 2015 Declaratory 
Ruling and Order, the Commission did not ``address the exact contours 
of the `autodialer' definition or seek to determine comprehensively 
each type of equipment that falls within that definition that would be 
administrable industry-wide.'' Rather, the 2015 Declaratory Ruling and 
Order maintained the Commission's conclusion in a 2003 order that to be 
considered an ``automatic telephone dialing system'' the ``equipment 
need only have the `capacity to store or produce telephone numbers,' '' 
as the statute dictates. In that regard, the 2015 Declaratory Ruling 
and Order noted that the Commission has ``interpreted `capacity' 
broadly since well before consumers' widespread use of smartphones'' 
and stated that ``there is no evidence in the record that individual 
consumers have been sued based on typical use of smartphone 
technology'' or that there are ``scenarios under which unwanted calls 
are likely to result from consumers' typical use of smartphones.'' 
Instead, the Commission committed to ``monitor our consumer complaints 
and other feedback, as well as private litigation, regarding atypical 
uses of smartphones, and provide additional clarification if 
necessary.''
    In any event, the use of an autodialer is only prohibited when a 
caller is using it to dial wireless numbers without prior express 
consent from the called party. They can be used to dial residential 
wireline numbers unless it is a prerecorded or artificial voice 
telemarketing call which then would require prior express consent.
    I recognize that this is complex and technology has changed 
considerably since passage of the TCPA. If Congress chooses to revisit 
the TCPA, updating the definition of autodialer could help provide 
greater certainty for consumers and businesses.

    Question 1b. I have also heard from companies who are concerned 
that, under the new rules, they could be subject to litigation if they 
attempt to contact a consumer whose phone number has been changed. One 
company, for example, sent text messages to an employee, who never 
informed the company that the employee's phone number had changed. The 
company did not find out about the change until it was brought to 
court. As an FCC commissioner, what guidance can you give to businesses 
to ensure they can call and text customers--or even employees--without 
fear of legal action?
    Answer. In the June 2015 Declaratory Ruling and Order, the 
Commission identified a number of options that, over time, may permit 
callers to learn of reassigned numbers. First, the Commission 
recognized that there is at least one database that can help to 
determine whether a number has been reassigned. Second, callers can ask 
consumers to notify them when they switch from a number for which they 
have given prior express consent. Third, the Declaratory Ruling and 
Order made clear that there is ``[n]othing in the TCPA or our rules 
[that] prevents parties from creating, through a contract or other 
private agreement, an obligation for the person giving consent to 
notify the caller when the number has been relinquished.'' And, fourth, 
the record in the proceeding suggests that callers seeking to find 
reassignments can: ``(1) include an interactive opt-out mechanism in 
all artificial- or prerecorded-voice calls so that recipients may 
easily report a reassigned or wrong number; (2) implement procedures 
for recording wrong number reports received by customer service 
representatives placing outbound calls; (3) implement processes for 
allowing customer service agents to record new phone numbers when 
receiving calls from customers; (4) periodically send an e-mail or mail 
request to the consumer to update his or her contact information; (5) 
utilize an autodialer's and/or a live caller's ability to recognize 
`triple-tones' that identify and record disconnected numbers; (6) 
establish policies for determining whether a number has been reassigned 
if there has been no response to a `two-way' call after a period of 
attempting to contact a consumer; and (7) enable customers to update 
contact information by responding to any text message they receive, 
which may increase a customer's likelihood of reporting phone number 
changes and reduce the likelihood of a caller dialing a reassigned 
number.''
    In addition, the Declaratory Ruling and Order established a one-
phone call safe-haven for callers placing calls to numbers that have 
been reassigned without the caller's knowledge. In sum, the Commission 
concluded that ``the existence of phone number database tools combined 
with other best practices, along with one additional post-reassignment 
call, together make compliance [with the TCPA] feasible.''

    Question 2. Commissioner Rosenworcel, do you believe that the TCPA 
is in need of modernization? For example, some businesses argue that 
the growth in wireless phones has made the TCPA out of date. In your 
opinion, what parts of the existing law should Congress update?
    Answer. Yes. Our communications technology is changing quickly. The 
TCPA was passed when there were less than 10 million cellphone 
subscriptions in the United States and the smartphone was a concept 
straight out of science fiction. By contrast, today, Americans are 
cutting the cord in increasing numbers and there are well over 350 
million wireless subscriptions in the United States. As a result, I 
believe it would be helpful to take a fresh look at the way the TCPA 
treats wired and wireless calls differently. This distinction may have 
made sense at the time of passage, but it no longer reflects the ways 
consumers and businesses use communications technology. In addition, as 
noted above, Congress could consider updating the Act's definition of 
autodialer to account for changes in technology since the TCPA was 
enacted.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Jerry Moran to 
                        Hon. Jessica Rosenworcel
    Question 1. Regarding the Commission's designated 100 percent 
overlap areas: You stated that the commission has a defined challenge 
process for price cap carriers, and that the commission is working on a 
similar process for rate-of-return carriers. Please provide more 
information about the commission's plans for allowing incumbent rate-
of-return carriers to dispute their designation as a 100 percent 
overlap area.
    Answer. In the 2011 Universal Service/Intercarrier Compensation 
Transformation Order, the Commission adopted a rule to eliminate high-
cost universal service support in incumbent local exchange carrier 
(ILEC) study areas where an unsubsidized competitor or a combination of 
unsubsidized competitors offers voice and broadband services that meet 
the Commission's service obligations throughout the study area. The 
Commission subsequently codified this rule in April 2014. In December 
2014, the Commission directed its Wireline Competition Bureau (Bureau) 
to ``publish its preliminary determination of those areas subject to 
100 percent overlap and then provide an opportunity for comment on 
those preliminary determinations.''
    On July 29, 2015, the Bureau published its preliminary list of 
fifteen rate-of-return study areas that it tentatively found were 
subject to 100 percent overlap by an unsubsidized competitor or 
combination of unsubsidized competitors. The Bureau sought public 
comment on its findings, in particular inviting feedback from affected 
parties. Comments were due on August 28, 2015 and reply comments were 
due on September 28, 2015.
    To derive the preliminary list of areas subject to 100 percent 
competitive overlap, the Bureau utilized FCC Form 477 data. Form 477 
filers must truthfully certify that they offer service in a particular 
census block, however, filers may not offer service to all locations in 
the census block. As a result, the Bureau concluded that it ``cannot 
finalize the [100 percent overlap] list . . . without knowing whether 
the unsubsidized competitor is offering fixed broadband and voice 
service in accordance with the Commission's service obligations for 
universal to all locations within the blocks reported on Form 477 and 
which overlap the study area.'' (emphasis in original)
    Thus, similar to the challenge process it had used in the past, the 
Bureau invited competitors to address in their comments whether they 
currently offer, to all locations within the blocks reported on Form 
477 and which overlap the incumbent's study area, service that meets 
the Commission's service obligations for universal service (e.g., 
rates, speeds, latency, usage capacity). Significantly, the Bureau also 
invited rate-of-return carriers that were identified on the preliminary 
list of 100 percent overlapped study areas ``to submit evidence that an 
unsubsidized competitor does not offer service to all locations in the 
[relevant] census block . . . and/or that the competitor is not 
offering service to all locations within those blocks.'' The Bureau 
noted that ``the type of evidence that we found persuasive in the . . . 
[price cap] challenge process to establish that service was not being 
offered in an area was evidence that a provider's online service 
availability tool showed `no service available' for particular 
addresses in the relevant area.'' The Bureau stated that ``such 
information would be relevant to our final determination.'' I believe 
that this process provides a fair opportunity for rate-of-return 
carriers to challenge the determination that they are in fact subject 
to 100 percent competitive overlap, but the agency should always remain 
open to ideas to improve its procedures.

    Question 2. Regarding the Commission's designated 100 percent 
overlap areas: Should a mere claim of service capability by an 
interested competitive provider be regarded as more or less persuasive 
then physical measurements showing signal strength at specific 
household locations?
    Answer. More information, including concrete and verifiable 
evidence, is always preferable to assist the Commission in assessing 
whether service is being provided to a given location.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                        Hon. Jessica Rosenworcel
    Question 1. Commissioner Rosenwercel, I know you previously worked 
with Senator Inouye, who was a friend to Senator Ted Stevens and often 
advocated for Alaskans as if he was the State's third Senator. You also 
come highly recommended by our Alaskan carriers. You have been to our 
state, including some remote communities, a number of times. You have 
come not only in the summer, but also in the winter, which tells us a 
lot about your character and commitment. As you saw firsthand, Alaska 
still has communities without mobile or broadband service, and in many 
places trails the Lower 48 in deployment of modern telecommunications 
infrastructure. At the direction of the previous Chairman, the 
Commission adopted a plan that destabilized funding to Alaska, 
hindering our carriers' ability to close this gap. Our rate-of-return 
and wireless carriers have worked together to put forward a plan that 
would stabilize funding for our rate-of-return carriers, providing them 
the certainty they need to invest in their networks. Will you continue 
to work with my office and our delegation to put this plan to work as 
soon as possible, and no later than Commission action addressing the 
national rate-of-return carrier program? I understand you, along with 
the Chairman and your fellow Commissioners, are committed to addressing 
the national program by the end of the year.
    Answer. I have been to many communities in Alaska, including 
Anchorage, Homer, Dillingham, Manokotak, Aniak, Kotzebue, Kiana, and 
Nome. As a result, I know firsthand the difficulties carriers face 
serving our 49th state. That is why, as the Commission contemplates 
high-cost universal service reform for rate-of-return carriers, I 
believe that it is important for us to account for Alaska's unique 
traits and consider the merits of the plan put forward by the majority 
of Alaska carriers. I commit to working with your office as we do so.

    Question 2. In your testimony, you highlight universal access as 
one of the four essential values that has informed our communications 
laws. If re-confirmed, will you continue to support the Universal 
Service Fund Program and its principals as envisioned by this Committee 
in the 1996 Act?
    Answer. Yes.

    Question 3. In your testimony, you said that, if re-confirmed, you 
will ``continue to be guided by the fundamental values in the law'' and 
that you will ``continue to respect the priorities of this Committee.'' 
Do you agree that if this Committee produces a legislative solution 
regarding the Open Internet Order, it is your responsibility as 
Commissioner to execute this solution as directed by Congress?
    Answer. Yes.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Booker to 
                        Hon. Jessica Rosenworcel
    Question 1. Commissioner Rosenworcel, you and I share a strong 
commitment to ensuring that traditionally under-represented voices have 
the chance to be heard through sound telecommunications policies. While 
we discussed this issue during your nomination hearing, I would like to 
understand your views in greater detail.
    The broadcast industry is in need of significant improvement in 
this regard. Less than 3 percent of broadcast television stations are 
owned by people of color and less than 7 percent are owned by women. 
These numbers are particularly troubling given the rise in media 
mergers and consolidation taking place across the country. Congress and 
the FCC have a responsibility to help ensure that the American people 
have a vibrant media marketplace.
    You've previously lauded the minority media tax credits that were 
in place until the mid-1990s as having been ``radically successful.'' 
You pointed out that, in the past, these tax credits were the single 
most important tool for increasing access to capital in this industry.
    Is there a need for Congress to reinstate the minority media tax 
credit? Can you describe the social and economic benefits of a vibrant 
and diverse media landscape, and how the wave of media mergers and 
acquisitions can pose challenges to independent and minority-owned 
networks?
    Answer. Yes. Media ownership matters. It plays a role informing 
what we see on the screen--and that, in turn, helps inform who we are 
as individuals, as a community, and as a nation.
    If we want a future where media ownership better reflects the full 
diversity of our population, we need to consider a tool from the past--
the minority media tax credit.
    The minority media tax credit began in 1978. The program encouraged 
the sale of broadcast and cable properties to minority-owned buyers by 
deferring the capital gains taxes of sellers. It dramatically increased 
broadcast ownership diversity before its repeal by Congress seventeen 
years later in 1995. In fact, when the program began, minorities owned 
roughly 40 broadcast stations. By the end of the program, there were 
333, including 290 radio stations and 43 television stations. The 
transactions that took place during its tenure amounted to over $1 
billion in economic activity.
    Today, media markets have changed. But access to capital remains an 
impediment for many small-and socially-disadvantaged businesses 
interested in media properties. That is why I believe it is time to 
take a fresh look at the minority media tax credit. While we may need 
to make adjustments to this program to update it and prevent waste and 
abuse, I believe it could again be an effective tool to encourage more 
diverse ownership of media properties.

    Question 2. As you know, there are relatively few broadcast 
stations located in New Jersey. In fact, our state is one of just two 
in the country that doesn't have its own in-state television market. 
This can have serious implications when it comes to civic participation 
and accessing local news content. I continue to have concerns about 
whether my constituents have the access to the robust local programming 
merited by New Jersey's high population density and incredible 
diversity.
    The FCC recently finalized its rules on market modifications, and 
due to an initiative that Senator Fischer and I championed, a study is 
being conducted by the FCC that will look at, among other things, 
states that lack media markets of their own.
    What other efforts can be undertaken by the FCC or Congress to 
ensure that consumers in New Jersey and around the country have access 
to relevant, important local television programming?
    Answer. New Jersey is the eleventh largest state by population, yet 
it lacks its own media market. This makes it difficult for residents to 
receive local information, including up-to-date weather and traffic 
reports. It makes it hard to secure news coverage. It also robs 
communities of their full identity, because so many stations are 
focused on the media markets in adjacent states--namely New York and 
Philadelphia. Historically, there was a statutory effort to address 
this shortcoming in Section 331 of the Communications Act, which 
alludes to the reallocation of a very high frequency commercial 
television broadcast station to New Jersey. However, going forward it 
is apparent that we will need new tools. A good place to start is the 
study you championed with Senator Fischer featured in section 109 of 
the Satellite Television Extension and Localism Act Reauthorization 
Act. Under the law, the Commission is required to release this study 
next year. I expect this study will include an extensive discussion of 
policies that would increase localism in states served by out-of-state 
media markets.

    Question 3. The transition from traditional wire-based telephone 
networks to fiber-based networks (sometimes referred to as the ``IP 
transition'') is an exciting new frontier that will modernize our 
communications infrastructure and provide many benefits to users. 
However, I've heard concerns from my constituents about the transition 
and what it means for consumers.
    One area of particularly concern is how the new networks will 
perform in the event of a natural disaster like Superstorm Sandy. 
Unlike traditional copper networks, fiber networks require backup 
battery power--and this comes at a cost. Lower income families may not 
be able to make the upfront investment in backup batteries if it means 
choosing between emergency preparations and putting food on the table.
    What recommendations do you have for Congress on how to make the IP 
transition work to the benefit of people across the economic spectrum?
    Answer. This is a time of extraordinary change for communications 
networks. The number of traditional telephone lines is declining, the 
use of wireless is growing, and services dependent on Internet Protocol 
are remaking our communications across the board. The one thing that 
does not change, however, is that we want our networks to work--
especially when the unthinkable occurs.
    I spent time in coastal New Jersey following Superstorm Sandy. I 
will never forget what I saw--a storm surge that had propelled rocks, 
wreckage, and sand blocks beyond beachfront neighborhoods, with cruel 
disregard for the cars and houses in the way. Many residents had their 
communications knocked out for days. It was a striking reminder that we 
need to be prepared in new ways because our new networks provide 
service using commercial power. When the power goes out--so does so 
much of our basic communications. That means consumers need to be aware 
of the limitations of new services--and they need to prepare.
    In August, the Commission adopted rules that require providers of 
line-powered replacement telephone services to offer new subscribers 
the option of purchasing a backup power solution that provides at least 
8 hours of standby power in the event of a commercial power outage so 
that consumers can reach 911 when it counts. In addition, within 3 
years, providers must offer at least one option that provides a minimum 
of 24 hours of backup power service. This, however, should only be the 
start. Going forward, we need to ensure that consumers have clear 
expectations about the capabilities of their services during the IP 
transition. We also can do more to push the marketplace to provide 
robust backup power as a basic part of consumer service packages.

    Question 4. Do you believe there should be a voucher system for 
emergency backup power similar to the system used during the transition 
to digital television in 2009?
    Answer. The coupon system developed for the digital television 
transition was a long and complex undertaking. However, the transition 
itself occurred on a nationwide basis over a very short period of time. 
Here, the transition to IP networks is also long and multi-faceted. But 
in contrast, the IP transition is happening in different communities at 
different times--and not necessarily in every household at the same 
time. In light of this difference, I think it would be smart to have 
the Government Accountability Office study the feasibility of a voucher 
system for backup power before pursuing this course.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                        Hon. Jessica Rosenworcel
    Question 1. Commissioner Rosenworcel, I was very disappointed when 
Windstream declined almost $28 million in Connect America funding for 
rural broadband in New Mexico. Windstream and other companies will be 
able to bid in a ``reverse auction'' process to bring broadband service 
to these customers. But I am very concerned that the most costly areas 
to deploy service will still be left behind. It seems to me that if 
Facebook and Google can bring Internet service to developing countries, 
it should be within our means to make sure all New Mexicans have access 
to broadband. Could you share your thoughts on how the FCC could use 
pilot projects or encourage new technologies to bring broadband service 
to remote rural areas?
    Answer. I share your concerns and agree that we need to think 
creatively about how to foster broadband access in hard-to-reach areas 
of the country, New Mexico included.
    Last year, the Commission began to use pilot projects to experiment 
with new ways to deploy broadband in our rural communities. The 
Commission established a $100 million budget for its rural broadband 
experiments, which attracted nearly 600 project bids from over 180 
applicants. These projects are just getting started, but they have 
already yielded instructive lessons for the agency as it considers how 
to update and modernize its high-cost universal service support 
programs.
    It is my hope that we will take what we have learned from these 
pilot projects and use it to inform the reverse auction that will take 
place for areas of the country, like New Mexico, where incumbent 
providers declined our initial offer of Connect America support.
    I also believe we need to explore new technologies and new ways of 
delivering service in rural communities. I think the best way to do 
this is to develop a more robust framework for the Remote Areas Fund, 
which was designed for bringing modern communications to the hardest-
to-reach and highest-cost areas of the country. Following completion of 
the reverse auction, I believe the Commission should turn back to this 
effort and creatively work to reach even more remote and rural areas.

    Question 2. Commissioner Rosenworcel, I want to thank you for your 
steadfast support for ending the digital divide impacting Tribal 
communities. This is a communications crisis that affects all of Indian 
Country. In my home state of New Mexico, about ninety percent of those 
living on Tribal lands lack access to high speed broadband. May I have 
your commitment to continue to support the FCC Office of Native Affairs 
and Policy and other FCC efforts to tackle the digital divide facing 
Indian Country?
    Answer. Yes, absolutely.

    Question 3. Commissioner Rosenworcel, you have been a champion for 
the E-Rate initiative. Last year, about $26 million in E-Rate funding 
helped bring broadband to New Mexico schools and libraries. Can you 
describe where you see recent E-Rate reforms building on the success of 
the E-Rate program? What digital learning and other broadband 
opportunities are you most excited about for schools and libraries?
    Answer. The E-Rate program is designed to connect all of our 
schools and libraries to the Internet. But until recently, this program 
was stuck in the age of dial-up. Speeds were slow, bureaucracy was 
significant, and funding was too hard for too many schools to secure.
    Last year, however, the Commission rebooted E-Rate and created E-
Rate 2.0. We set goals for capacity of 100 megabits in the near term 
and 1 Gigabit in the long term to all our schools and libraries. As a 
result, we are on course to have high-capacity broadband and Wi-Fi in 
all schools over the next five years. We also streamlined the 
application process. This is important--because a digital age program 
should not be weighed down by a mountain of analog-era paperwork. 
Finally, we updated the budget to reflect the importance of broadband 
connections in modern schools and libraries.
    These steps are exciting. But as you suggest, what will follow in 
their wake is even more exciting. Having better broadband in more of 
our schools will help students everywhere develop the digital skills 
they need to compete in the information economy. It also will lead to 
new nationwide markets for educational content, devices, and innovative 
teaching tools. In time, it could mean that school districts could 
customize more content and move beyond textbooks and the slow and 
costly process of selecting them every seven to ten years. In addition, 
as a result of our changes, more libraries will be able to accommodate 
more digital age activity and become modern hubs for research, 
homework, job-seeking, and community education.
    Of course, for all of these good things to occur, we need to be 
vigilant. We need to work out any kinks in our new service categories. 
We also need to continually assess the complexity of the application 
process and look for new ways to streamline our systems. Finally, we 
must always be on guard for waste and abuse to ensure that this program 
can continue to provide the connectivity modern schools and libraries 
need.

    Question 4. Commissioner Rosenworcel, I am working in a very 
bipartisan manner with Senator Moran on Federal I.T. reforms. Last 
year, we were successful in passing the Federal Information Technology 
Acquisition Reform Act or ``FITARA.'' The Government Accountability 
Office (GAO) issued a report recently stating that these I.T. reforms 
such as Federal data center consolidation are already saving $3.6 
billion in annual spending. The FCC has a very active Chief Information 
Officer who I know is working hard to improve IT at the Commission. The 
newly revamped FCC Consumer Complaints Database is one example of this. 
I would like to see more of this type of smart I.T. acquisition and 
management. Could you share with me your perspective on what IT reforms 
might help the FCC better meet its mission?
    Answer. Every year the Federal Government invests more than $80 
billion annually in IT. With the passage of Federal Information 
Technology Reform Act, the Commission and other Federal agencies are 
now making smarter, lower risk investments and continuously looking for 
opportunities to increase efficiency and reduce waste. As you 
mentioned, the Commission's CIO David Bray has taken many steps to 
modernize the Commission and reduce IT costs along the way.
    One example of this is the updated FCC Consumer Help Center, where 
consumers can file complaints with the Commission online. 
Traditionally, the FCC would hire one contractor to build this new 
website from scratch. That would have taken 18 months and cost the 
Commission $3.2 million. However, at the direction of the CIO, the 
Commission opted to hire a web developer to build the new Consumer Help 
Center with ``on-the-shelf'' technology. It was completed in 6 months 
and cost the Commission $450,000. Not only did this project save the 
Commission money, but it has also enhanced the way American consumers 
engage with us. It allows consumers to easily navigate FCC forms and 
check the status of any complaints they have filed. It provides 
granular, real-time data to support analysis by the agency as well as 
outside groups. And because of its flexible platform, the Commission 
can continue to modify and upgrade the Center as consumer needs 
dictate.
    As the FCC continues to update its website, I look forward to 
seeing what other cost-saving opportunities our CIO identifies and 
putting more information in the hands of American consumers.

                                  <all>

                  This page intentionally left blank.
                  This page intentionally left blank.
                  This page intentionally left blank.
?

?

?

      
</pre></body></html>
